<html>
<title> - WASTEWATER BLENDING</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]


 
                          WASTEWATER BLENDING

=======================================================================

                                (109-10)

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    WATER RESOURCES AND ENVIRONMENT

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 13, 2005

                               __________


                       Printed for the use of the
             Committee on Transportation and Infrastructure


                                   ____

                    U.S. GOVERNMENT PRINTING OFFICE
21-631                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001


             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                      DON YOUNG, Alaska, Chairman

THOMAS E. PETRI, Wisconsin, Vice-    JAMES L. OBERSTAR, Minnesota
Chair                                NICK J. RAHALL, II, West Virginia
SHERWOOD L. BOEHLERT, New York       PETER A. DeFAZIO, Oregon
HOWARD COBLE, North Carolina         JERRY F. COSTELLO, Illinois
JOHN J. DUNCAN, Jr., Tennessee       ELEANOR HOLMES NORTON, District of 
WAYNE T. GILCHREST, Maryland         Columbia
JOHN L. MICA, Florida                JERROLD NADLER, New York
PETER HOEKSTRA, Michigan             ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           CORRINE BROWN, Florida
SPENCER BACHUS, Alabama              BOB FILNER, California
STEVEN C. LaTOURETTE, Ohio           EDDIE BERNICE JOHNSON, Texas
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          JUANITA MILLENDER-McDONALD, 
ROBERT W. NEY, Ohio                  California
FRANK A. LoBIONDO, New Jersey        ELIJAH E. CUMMINGS, Maryland
JERRY MORAN, Kansas                  EARL BLUMENAUER, Oregon
GARY G. MILLER, California           ELLEN O. TAUSCHER, California
ROBIN HAYES, North Carolina          BILL PASCRELL, Jr., New Jersey
ROB SIMMONS, Connecticut             LEONARD L. BOSWELL, Iowa
HENRY E. BROWN, Jr., South Carolina  TIM HOLDEN, Pennsylvania
TIMOTHY V. JOHNSON, Illinois         BRIAN BAIRD, Washington
TODD RUSSELL PLATTS, Pennsylvania    SHELLEY BERKLEY, Nevada
SAM GRAVES, Missouri                 JIM MATHESON, Utah
MARK R. KENNEDY, Minnesota           MICHAEL M. HONDA, California
BILL SHUSTER, Pennsylvania           RICK LARSEN, Washington
JOHN BOOZMAN, Arkansas               MICHAEL E. CAPUANO, Massachusetts
JIM GERLACH, Pennsylvania            ANTHONY D. WEINER, New York
MARIO DIAZ-BALART, Florida           JULIA CARSON, Indiana
JON C. PORTER, Nevada                TIMOTHY H. BISHOP, New York
TOM OSBORNE, Nebraska                MICHAEL H. MICHAUD, Maine
KENNY MARCHANT, Texas                LINCOLN DAVIS, Tennessee
MICHAEL E. SODREL, Indiana           BEN CHANDLER, Kentucky
CHARLES W. DENT, Pennsylvania        BRIAN HIGGINS, New York
TED POE, Texas                       RUSS CARNAHAN, Missouri
DAVID G. REICHERT, Washington        ALLYSON Y. SCHWARTZ, Pennsylvania
CONNIE MACK, Florida                 JOHN T. SALAZAR, Colorado
JOHN R. `RANDY' KUHL, Jr., New York
LUIS G. FORTUNO, Puerto Rico
LYNN A. WESTMORELAND, Georgia
CHARLES W. BOUSTANY, Jr., Louisiana
VACANCY

                                  (ii)




            Subcommittee on Water Resources and Environment

                JOHN J. DUNCAN, Jr., Tennessee, Chairman

SHERWOOD L. BOEHLERT, New York       EDDIE BERNICE JOHNSON, Texas
WAYNE T. GILCHREST, Maryland         ROBERT MENENDEZ, New Jersey
VERNON J. EHLERS, Michigan           JOHN T. SALAZAR, Colorado
STEVEN C. LaTOURETTE, Ohio           JERRY F. COSTELLO, Illinois
SUE W. KELLY, New York               GENE TAYLOR, Mississippi
RICHARD H. BAKER, Louisiana          BRIAN BAIRD, Washington
ROBERT W. NEY, Ohio                  TIMOTHY H. BISHOP, New York
GARY G. MILLER, California           BRIAN HIGGINS, New York
HENRY E. BROWN, Jr., South Carolina  ALLYSON Y. SCHWARTZ, Pennsylvania
BILL SHUSTER, Pennsylvania           EARL BLUMENAUER, Oregon
JOHN BOOZMAN, Arkansas               ELLEN O. TAUSCHER, California
JIM GERLACH, Pennsylvania            BILL PASCRELL, Jr., New Jersey
TOM OSBORNE, Nebraska                RUSS CARNAHAN, Missouri
TED POE, Texas                       NICK J. RAHALL, II, West Virginia
CONNIE MACK, Florida                 ELEANOR HOLMES NORTON, District of 
LUIS G. FORTUNO, Puerto Rico         Columbia
CHARLES W. BOUSTANY, Jr.,            JAMES L. OBERSTAR, Minnesota
Louisiana, Vice-Chair                  (Ex Officio)
VACANCY
DON YOUNG, Alaska
  (Ex Officio)

                                 (iii)

                                CONTENTS

                               TESTIMONY

                                                                   Page
 Graham, John H., Jr., Assistant Director, Water Quality Control 
  Department, Maryville, Tennessee...............................    12
 Hall, John C., President, Hall and Associates...................    12
 Olivieri, Dr. Adam W., Principal Engineer, Vice President, EOA, 
  Inc............................................................    12
 Rose, Dr. Joan B., Homer Nowlin Chair in Water Research, 
  Department of Fisheries and Wildlife, Michigan State University    12
 Stoner, Nancy, Director, Clean Water Project, Natural Resources 
  Defense Council................................................    12
 Stupak, Hon. Bart, a Member of Congress from Michigan...........     1
Vicory, Alan H., Jr., Executive Director and Chief Engineer, Ohio 
  River Valley Water Sanitation Commission.......................    12

          PREPARED STATEMENT SUBMITTED BY MEMBERS OF CONGRESS

Costello, Hon. Jerry F., of Illinois.............................    38
Kelly, Hon. Sue, of New York.....................................    84
Miller, Hon. Gary G., of California..............................    85
 Stupak, Hon. Bart, of Michigan..................................   112

               PREPARED STATEMENTS SUBMITTED BY WITNESSES

 Graham, John H., Jr.............................................    40
 Hall, John C....................................................    44
 Olivieri, Dr. Adam W............................................    86
 Rose, Dr. Joan B................................................    98
 Stoner, Nancy...................................................   104
Vicory, Alan H., Jr..............................................   115

                       SUBMISSIONS FOR THE RECORD

American Public Works Association, Peter B. King, Executive 
  Director, letter, April 12, 2005...............................   120
Arkansas Municipal League, Don A. Zimmerman, Executive Director, 
  letter, April 12, 2005.........................................   121
Arkansas Water Environment Association, Roy Reed, Chair, letter, 
  April 8, 2005..................................................   123
Association of Metropolitan Sewerage Agencies, Ken Kirk, 
  Executive Director, April 8, 2005..............................   125
Association of Ohio Metropolitan Wastewater Agencies, Michael L. 
  McGlinchy, President, April 11, 2005...........................   129
California Water Environment Association, Steven Agor, President, 
  April 8, 2005..................................................   130
Central States Water Environment Association, Inc., James P. 
  Roth, letter, April 12, 2005...................................   131
Carneys Point Township Sewerage Authority, Paul Reed, Chairman, 
  letter, April 12, 2005.........................................   132
City of Cheboygan, Gary Good, Superintendent, Cheyboygan, MI, 
  letter, April 12, 2005.........................................   134
 City of Dayton, Frank Welch, City Manager, Dayton, TN, letter, 
  April 7, 2005..................................................   135
City of Dayton Wastewater Treatment Plant, Glenn A. Fraley, 
  Superintendent, Dayton, TN, letter, April 7, 2005..............   137
City of Detroit Water and Sewerage Department, Victor M. Mercado, 
  Director, fact sheet and letter, April 8, 2005.................   139
City of Hohenwald, Bob Burklow, Mayor, Hohenwald, TN, letter, 
  April 7, 2005.................................................. 00142
City of Independence, Water Pollution Control Department, Dick 
  Champion, Jr., Director, April 11, 2005........................   144
City of Lewisburg, Larry E. Jones, Superintendent, letter, April 
  7, 2005........................................................   145
 City of Pulaski, Daniel M. Speer, Mayor, Pulaski, TN, letter, 
  April 6, 2005..................................................   147
City of San Leandro, Dean Wilson, Plant Manager, Water Pollution 
  Control Division, San Leandro, CA, letter, April 8, 2005.......   149
City of Vancouver, Brian K. Carlson, Public Works Director, 
  letter, April 15, 2005.........................................   150
Coalition for Clean Water, Edwin A. Thorpe, Executive Director, 
  letter, April 8, 2005..........................................   151
East Bay Dischargers Authority, Jennifer Toy, Chair, letter, 
  April 8, 2006..................................................   152
First Utility District of Knox County, TN, Ralph McCarter, 
  General Manger, letter, April 12, 2005.........................   153
Florida Water Environment Association Utility Council, Raymond E. 
  Hanson, President, letter, April 7, 2005.......................   154
Genesee County Drain Commissioner's Office, Joseph M. Goergen, 
  Plant Manager, letter, April 12, 2005..........................   155
Greater Lawrence Sanitary District, Richard Hogan, Executive 
  Director, letter, April 11, 2005...............................   156
Indiana Association of Cities and Towns, Matthew C. Greller, 
  Executive Director, letter.....................................   158
Indiana Water Environment Association, Herbert L. Corn, 
  President, April 12, 2005......................................   159
Iowa Water Pollution Control Association, Carla J. Schumacher, 
  President, letter, April 12, 2005..............................   160
Joint Meeting of Essex and Union Counties, Samuel T. McGhee, 
  Executive Director, letter, April 8, 2005......................   161
Kansas Water Environment Association, Martha Tasker, President, 
  letter, April 11, 2005.........................................   163
Knoxville Utilites Board, Bill R. Elmore, Senior Vice President 
  and Chief Operating Officer, letter, April 6, 2005 and letter, 
  Mintha E. Roach, Acting President and CEO, January 8, 2004.....   166
Maryland Association of Municipal Wastewater Agencies, Inc., 
  Julie Pippel, President, letter, April 12, 2005................ 00171
Michigan Water Environment Association, William Gramlich, 
  President, letter, April 13, 2005..............................   172
Milwaukee Metropolitan Sewerage District, Kevin L. Shafer, 
  Executive Director, letters, April 12, 2005, and February 9, 
  2004...........................................................   173
Minnesota Environemntal Science and Economic Review Board, Bruce 
  A, Nelson, President, April 11, 2005...........................   181
National Fisheries Institute, John Connelly, President, letter, 
  April 27, 2005.................................................   183
Natural Resources Defense Council Advocacy Center, statement.....   185
Nemura, Adrienne Denise, P.E., Technical Review of the Katonak-
  Rose Report on Public Health Risks Associated with Wastewater 
  Blending, and Errors and Inappropriate Inferences Associated 
  between Waterbourne Disease Outbreaks and Blended Effluent in 
  the Katonak-Rose Report........................................   195
New Jersey Water Environment Association, Henry Penley, 
  President, letter, April 8, 2005...............................   206
New York Water Environment Association, Inc., John R. Amend, 
  President, letter, April 12, 2005..............................   208
North Carolina American Water Works Association, Mike E. 
  Richardson, Chairman, letter, April 12, 2005...................   209
Pennsylvania Municipal Authorities Association, John W. Brosious, 
  Deputy Director, letter........................................   210
Pennsylvania Water Environment Association, letter, April 11, 
  2005...........................................................   212
Reply Brief of Intervenor Association of Metropolitan Sewerage 
  Agencies, Case No. 04-5073.....................................   213
San Francisco Public Utilities Commission, Thomas J. Franza, 
  Assistant General Manager, Wastewater Enterprise, letter, April 
  12, 2005.......................................................   225
Somerset Raritan Valley Sewerage Authority, Glen D. Petrauski, 
  Executive Director, letter, April 4, 2005......................   226
South Carolina Water Quality Association, Inc., Andy Fairey, 
  President, letter, April 12, 2005..............................   228
Texas Association of Metropolitan Sewerage Agencies, Sharon 
  Hayes, President, Letter, April 12, 2005.......................   229
Urban Areas Coalition, letter, April 15, 2005....................   230
Virginia Association of Municipal Wastewater Agencies, Inc., Mark 
  A. Haley, President, letter, April 12, 2005....................   232
Washington-East Washington Joint Authority, R.A. Dami, Executive 
  Director, letter, April 8, 2005................................   234
Water Environment Services, a Department of Clackmas County, 
  Oregon, R. Kent Squires, Director, letter, April 12, 2005......   236
Wayne County , Robert A. Ficano, County Executive, Detroit, MI, 
  letter, April 11, 2005.........................................   238
Water Environment Federation, statement..........................   240
West County Agency, E.J. Shalaby, Manager, letter, April 8, 2005.   247
West Bay County Regional Wastewater Treatment Plant, Kenneth C. 
  Schott, Plant Superintendent, letter, April 12, 2005...........   248
West Virginia Municipal Water Quality Association, David Sago, 
  President, letter, April 12, 2005..............................   250
Twenty-eight Organizations in support of a final U.S. 
  Environmental Protection Agency Clean Water Act blending 
  policy, January 21, 2005.......................................   251


                           WASTEWATER BLENDING

                              ----------                              


                       Wednesday, April 13, 2005

        House of Representatives, Committee on 
            Transportation and Infrastructure, Subcommittee 
            on Water Resources and Environment, Washington, 
            D.C.

    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2167, Rayburn House Office Building, Hon. John J. Duncan, 
Jr. [chairman of the subcommittee], presiding.
    Mr. Duncan. I want to call this subcommittee meeting of the 
Water Resources and Environment Subcommittee to order. We have 
a very distinguished panel of witnesses that we will hear from 
shortly, but in order to get our colleague, Congressman Stupak, 
on the way and because we have a chance to discuss these issues 
and ask questions of our colleagues later on the Floor and at 
other times, we generally don't ask questions of our member 
panels.
    Ms. Johnson and I have agreed, before we even give our 
opening statements, to let Bart go ahead and give his statement 
and then proceed. Then, Bart, you're welcome to stay with us, 
but we know that you have many, many other things on your 
schedule. So you may proceed and give the first opening 
statement in regard to this hearing here this morning.

 TESTIMONY OF HONORABLE BART STUPAK, A MEMBER IN CONGRESS FROM 
                     THE STATE OF MICHIGAN

    Mr. Stupak. Thank you, Mr. Chairman and Ranking Member 
Johnson, thank you for the courtesy. I am just down the hall at 
a markup on the Energy bill that's been going on the third day. 
So that's been getting a little contentious, so I would like to 
get back there.
    But I really want to thank you for holding this hearing on 
wastewater blending. My staff will be here, because as I said, 
I won't be able to stay. Because I would really be interested 
in hearing from those who support the EPA's proposed policy to 
dump inadequately treated human waste into our waters, a 
practice that the EPA refers to as blending.
    I guess having worked on this issue for a while now, I 
anticipate they will probably argue that blending effluent will 
meet effluent limitations outlined in their discharge permits, 
or that the costs that will be incurred if blending is not 
allowed to continue will be astronomical, and that blending is 
legal, safe and a commonly used practice in this Country.
    But you know, for 30 years, since the Clean Water Act, 
we've been working hard as a Country, we've spent billions of 
dollars to clean up our Nation's treatment of water and 
wastewater in particular. And I just don't want to turn back 
the clock on 30 years of progress we have made. That's really 
what it comes down to, when you take a look at this blending 
policy.
    If finalized, it would effectively lift the current 
prohibition, and the current prohibition on bypassing a crucial 
secondary phase in treating human waste before it is discharged 
out into our rivers, our lakes, our streams. Because that 
second the viruses, the parasites that enter our waterways and 
our drinking water. It's just as simple as this, people don't 
want to drink water that has only been partially treated 
against these pathogens and viruses and parasites from waste.
    Those who support the EPA proposed blending policy may 
argue that the secondary treatment will be safe because the 
final effluent will still meet discharge standards at the end 
of the pipe. Well, even if blending sewage meets the end of the 
pipe discharge limit, it still is the increase of human risk to 
human health and to the environment. If you look at the current 
Federal standards, I know this Committee is very familiar with 
them, there are very few standards that exist for at the end of 
the pipe. The proposed policy would allow treatment plants to 
meet these few standards that are on the books by trying to do 
a massive dilution of sewage with storm water instead of 
providing effective treatment.
    If you take a look at the history of this policy, it was 
first proposed in 1984 under President Reagan. The Congress and 
President Reagan said, we don't accept this. It was then 
proposed again, to do blending in the Clinton Administration. 
It was rejected there. Well, we're back here now to November of 
2003, when the EPA once again is proposing blending.
    The EPA regulations are clear. And they define a bypass as, 
``the intentional diversion of waste streams from any portion 
of a treatment facility and secondary treatment of human waste 
is clearly a part of the treatment facility. In fact, secondary 
treatment is the core of the sewage treatment process.''
    Current regulations say that the general prohibition on 
bypassing secondary treatment has an exception. In rare 
situations where a treatment facility is likely to be damaged 
or public health is to be harmed or repair to the system to 
accommodate and fully treat heavy flows cannot be accomplished. 
If we are going to allow this, facilities should be forced to 
do a feasibility study on a case-by-case basis rather than just 
change the rule in all wastewater treatment plants, or at least 
those municipal wastewater treatment plants, would fall 
underneath this change.
    If you take a look at it, and I'm on the Great Lakes and we 
all protect our water resources, no matter what State we are, 
but I'm in the Great Lakes. If you take a look at places like 
Milwaukee, Cleveland, Toronto, Chicago and others, and Detroit, 
are dumping billions of gallons of partially treated sewage 
into our Great Lakes. There was one day last July where 400 
cities along the Great Lakes, 400 of them, discharged sewage 
into our Great Lakes, partially treated sewage. That's 400 
cities. Releases are frequent, and under the EPA's proposal, 
they will become more frequent.
    In 2004, and this is according to preliminary data we have, 
Detroit released wastewater which contained some form of sewage 
400 times. That's more than once a day. Four hundred times, 
just Detroit alone. And Detroit has, I'm not here to knock 
Detroit, but they have also spent, in trying to improve their 
system, they have spent now close to a billion dollars trying 
to improve upon it.
    In Michigan, not only is the Great Lakes the world's 
largest body of fresh water, but it hurts our tourism, it hurts 
our fishing industry, which is a large industry, and human 
health is a big concern. Back in 1993, I was in Congress, as I 
think most of you were with me, Milwaukee had a cryptosporidius 
outbreak that occurred in Milwaukee. Over 100 people died, over 
400,000 people became ill. The parasite that caused this 
illness, cryptosporidium, is not effectively removed if you do 
not have the secondary treatment process. So we should not be 
bypassing. Milwaukee is a good example on why we should not do 
this.
    And I know Milwaukee has taken great steps to try to 
alleviate their concerns. But this is what's going to happen if 
we allow blending.
    Myself, Congressman Pallone, Congressman Shaw, Congressman 
Kirk and 132 others of our colleagues signed a letter to the 
EPA earlier this year urging them not to proceed with this 
blending proposal. Democrats and Republicans joined in and 
said, don't do this blending proposal. On March 3rd, 
Congressman Shaw, Congressman Pallone, Congressman Gilchrest, 
Congressman Kirk and others representing States from coast to 
coast, came and we introduced legislation called Save Our 
Waters from Sewage Act, H.R. 1126. We right now have 77 
bipartisan co-sponsors. Our legislation would just prevent the 
EPA from finalizing the blending policy.
    Mr. Chairman, I can go on and on and on. I'll wrap it up 
just by saying, if we take a look at the President's budget, 
and not casting stones here, because Congress has the ultimate 
responsibility here to pass the budget and put the money in. 
But we see one-third cut in the Clean Water Revolving Loan 
funds, we see other cuts in the Safe Drinking Water Revolving 
Loans. And I know it's a tight year. But the health, and for 
the good of our economy and the health of our American people, 
I hope we can replace these cuts and not allow this proposal to 
go through, this blending proposal. I think it's dangerous for 
our environment, but especially for our human health.
    With that, I see I have gone over my time. I appreciate 
your courtesy. If there are any questions, I will be happy to 
try to answer them.
    Mr. Duncan. Well, Bart, as I said earlier, we generally 
have a policy in this Subcommittee of not having questions to 
members, as a courtesy to all of our witnesses who have come in 
from around the country. And because we also have a chance to 
ask you questions later on. But certainly you are one of our 
outstanding members and I appreciate very much your concern on 
this issue. For all the reasons that you've stated, that's why 
we're starting to look into this.
    Do you have anything you wish to say, Ms. Johnson?
    Ms. Johnson. No, thank you, Mr. Chairman.
    Mr. Duncan. Okay, well, thank you for coming.
    Mr. Stupak. And thank you for having a hearing shortly 
after we introduced the legislation. I appreciate it.
    Mr. Duncan. Thank you.
    I want to welcome everyone to our hearing today on 
wastewater blending. As most people know, there is a great deal 
of confusion, even at times misinformation about this issue. My 
goal today is to have a balanced discussion and hopefully come 
to some reasonable conclusions about when blending is 
appropriate and when it is not.
    Some people say that blending is bad because it involves 
diverting part of a treatment plant's excess water around its 
biological treatment unit. Then also, we will have one of our 
expert witnesses today who says blending protects public health 
and the environment by increasing wet weather wastewater plant 
capacity and thereby significantly reducing raw sewage 
overflows into streams and potentially into homes.
    So there you have sort of both sides of the equation. 
Currently in some parts of the Country, States issue permits 
that allow wastewater treatment plants to discharge blended 
wastewater during periods of heavy rain or snow melt. Some of 
these permits also impose conditions requiring additional 
treatment of this wastewater. All of these permits require the 
wastewater treatment plant to meet all applicable Clean Water 
Act standards before it discharges blended wastewater into a 
river or lake. That requirement is already in the law.
    In other parts of the Country, States cannot issue permits 
that allow blending because the EPA region will veto the 
permit. That is the situation in Tennessee. There has been a 
change of a rule that was in effect for 26 years and a 
regulation that was in effect for 20 years. So when you have 
one EPA region saying one thing and one EPA region saying 
another, that leads of course to some of the confusion and 
misunderstanding that there is on this issue and that's what 
this hearing hopefully is about here this morning.
    What this means in Tennessee and many other States is that 
wastewater treatment plants may have to build additional 
treatment capacity and additional storage capacity, which could 
cost over $100 million at a single plant, even for small 
cities. That kind of expenditure is almost impossible to handle 
for some, to require this expenditure to handle heavy 
wastewater flows that occur sometimes only once or twice a 
year.
    This is a very important issue. Around the Country, it is 
estimated that at a minimum, $80 billion, maybe as much as $200 
billion of additional infrastructure will have to be built if 
wastewater blending is not allowed. That's a lot of money. 
Where are we going to come up with all that, with all these 
other needs? People are going to have to explain that, I would 
say.
    Since I announced this hearing, I have received over 50 
letters from communities in 22 States all over the Country--
Missouri, Arkansas, Ohio, California, Illinois, Michigan, 
Tennessee, Florida, Massachusetts, Indiana, New Jersey, Kansas, 
Maryland, Minnesota, Pennsylvania, South Carolina, Texas, 
Virginia, West Virginia, expressing support for the practice of 
blending and asking for help to ensure that blending remains a 
wastewater management tool.
    My goal today is first, to help people understand what 
blending is. Very few people even understand what it is. I've 
heard some people compare blending to the discharge of raw 
sewage. That's not true. Blending simply means that less than 
100 percent of the wastewater flow receives biological 
treatment before it is discharged. All the wastewater flow 
receives some treatment, and all the wastewater meets Clean 
Water Act standards before it is discharged. All the wastewater 
meets Clean Water Act standards before it is discharged.
    Secondly, I would like to have a balanced discussion of 
whether or not blending is a practice that is protective of 
human health and the environment. Some argue that blended 
wastewater will have more pathogens, as we just heard 
Congressman Stupak say. Others argue that this is not true.
    Third, I would like a balanced discussion of whether or not 
blending is legal under the Clean Water Act. This relates back 
to the confusion between the regions that I just mentioned a 
few moments ago. Some argue that blending is an illegal bypass 
around treatment. Others argue that it is legitimate plant 
design and point out that the Clean Water Act does not dictate 
plant design.
    Finally, I would like the witnesses to help us look for a 
solution to resolve all the controversy and uncertainty 
surrounding blending and surrounding this issue. I expect each 
of our witnesses today can agree that a wastewater treatment 
plant can be designed in a way that allows wastewater to 
receive protective and cost-effective treatment, even if not 
all the wastewater goes through a biological treatment unit.
    If that is the case, we should not be talking about 
prohibiting blending, we should be talking about the 
circumstances and conditions under which blending is 
appropriate and when it is not.
    I want to hear from each witness about how we can reach a 
consensus so that blending can hopefully in some way be a win-
win both for public health and the communities.
    Now let me turn things over to our very distinguished 
Ranking Member, Ms. Johnson.
    Ms. Johnson. Thank you very much, Mr. Chairman, for holding 
this hearing today on the practice of blending under the Clean 
Water Act.
    There are two questions that should be answered regarding 
blending. One is, is it permissible under the Clean Water Act 
and its implementing regulations; and two, is it protective of 
human health and the environment. To both questions, there is 
no agreement. Within the Environmental Protection Agency there 
is disagreement over whether blending is authorized under the 
Clean Water Act regulations. EPA has not taken a uniform 
position around the Country.
    Unfortunately, we will not hear from them today and their 
views. Perhaps though in the future EPA could explain its 
position to the Committee and eliminate some of the confusion 
that surrounds the issue.
    Let me talk about what we know and what we do not know 
about sewage blending. We know that blending is conducted in 
some areas of the Country and prohibited in others. We know 
that there are insufficient data as to whether blending is 
protective of human health and the environment. We know that 
the Nation does not have the resources to provide full 
treatment of every drop of water, 100 percent of the time, and 
that there will be times when less than full treatment is 
allowed, such as under the current bypass rules.
    We know that while blending may or may not cause an 
increase in the concentration of pathogens and other 
pollutants, it certainly increases the total mass of those 
pollutants in receiving waters. We know that blending is a 
distinct issue from both the elimination of combined sewage 
overflow and storm water discharges. Blending involves sanitary 
sewers and partially treated sewage. We know that the Clean 
Water Act allows EPA to define by regulation the technology-
based standard that constitutes secondary treatment. But we do 
not know whether blending is consistent with that standard.
    We know that a major cause of extremely high flow is 
infiltration inflow from aging collection systems. As systems 
age, infiltration inflow has a tendency to increase. We know 
that while communities are addressing infrastructure needs, 
they continue to face a funding gap in excess of $300 billion 
over the next 20 years. And clearly, we need to focus on 
reducing infiltration inflow and minimize the instances by 
which any bypass should be necessary.
    If nothing else, I believe that today's hearing will 
demonstrate that the cuts in Federal spending for wastewater 
infrastructure are extremely ill-advised. Worldwide, someone 
who is ill because of polluted water occupies every second 
hospital bed. Six thousand children die every day from an 
illness caused by the lack of sanitary facilities.
    People think that that cannot happen here. Yet in the last 
decade, 104 people died and over 400,000 became ill because of 
the cryptosporidium in Milwaukee's drinking water. And it's 
present in the waste stream and highly resistant to 
disinfectants such as chlorine.
    Secondary treatment is the best way to reduce the 
introduction of cryptosporidium from wastewater treatment 
plants. Mr. Chairman, clean water and safe water is a right for 
every American. We should tread cautiously where any action 
could imperil this precious resource. I look forward to hearing 
the witnesses, though I'm in a markup in another committee, I 
might have to dash out. But I thank the witnesses for being 
here and thank you for the hearing.
    Mr. Duncan. Thank you very much, Ms. Johnson. Does anyone 
else have a statement they wish to make? Mr. Gilchrest.
    Mr. Gilchrest. Thank you, Mr. Chairman. I have a markup on 
the Energy bill in the Resources Committee. So after my 
statement I am going to have to leave.
    Mr. Duncan. Well, I'll tell you, we're all in that 
situation. I've got markups going in two other committees. It's 
a busy, busy day.
    Mr. Gilchrest. Maybe I'll just stay here, and I won't have 
to worry about the votes.
    [Laughter.]
    Mr. Duncan. Go ahead.
    Mr. Gilchrest. Thank you, Mr. Chairman.
    I am going to address specifically the issue of the 
Chesapeake Bay and the Chesapeake Bay watershed and blending. 
One of the problems in the Chesapeake Bay is that it is 
extremely shallow, extremely fragile and extremely vulnerable 
to human activity. The biggest problem in the bay, and there 
are a lot of problems, I think we should outlaw during this 
next markup, Mr. Chairman, cigarette boats and big power boats, 
because not only are they noisy, they create a great deal of 
disturbance with the sediment in the water. But that's for 
another day.
    The nitrogen is a key issue to the degradation of the 
Chesapeake Bay. What we're doing now is ensuring that all 
plants have biological nutrient removal mechanisms. In the next 
few years, we're going to enhance that. There is well over a 
million pounds of nitrogen that gets flushed into the bay ever 
year. And we have targeted sewage treatment plants. The next 
will deal with the conservation efforts of agriculture, we're 
dealing with storm water runoff and so on. We have a plan over 
the next ten years to deal specifically with nitrogen.
    It seems to me that if we use blending, it reduces the 
incentive and the motivation to target that specific nutrient 
of nitrogen. We get nitrogen from the air, we get nitrogen from 
agriculture, storm water runoff. Specifically the easiest fix 
for nitrogen in the short run is sewage treatment plants.
    I look forward to further discussions on this. I certainly 
would like to talk to the witnesses as we go along. Because if 
you can show me that blending will help us stay on track with 
reducing nitrogen by 30 million pounds a year, that's our goal, 
take that right out of the system, then I'll go along with this 
program.
    But I don't see how blending, with releasing, the old 
saying in the 1960s was, the solution to pollution is dilution, 
maybe that's delusionary, I don't know. And I'm not sure if I 
said that right.
    But in this case, nitrogen is water soluble. That baby just 
goes right through there, and I don't see how blending can 
reduce the amount of nitrogen that goes into the Chesapeake 
Bay. So I look forward to working with EPA on this issue. It 
may work in some other place, but it's really difficult for me 
to see how it would work in the Chesapeake Bay.
    Thank you very much, Mr. Chairman.
    Mr. Duncan. Thank you, Mr. Gilchrest. Anybody else? All 
right. We go by seniority first, so I'll go--did you have a 
statement, Mr. Pascrell? All right, go ahead.
    Mr. Pascrell. Thank you, Mr. Chairman.
    This issue of wastewater blending, and I want to associate 
myself with many of the remarks that the gentleman from 
Maryland just expressed. This is not an easy issue. I'm sorry 
we don't have the EPA here to have dialogue, but obviously 
there's a reason for that.
    I think that we can come to some conclusions here that 
would, maybe I'm foolish enough to think this, that would 
satisfy the environmental community as well as the EPA and the 
Congress, more important. I think that's possible. The reason 
why I think it's possible is that the Chairman of this 
Committee has been the main reason for the fairness of the 
Committee. I say what I mean usually, right?
    There's no question that all of the communities out there 
that are struggling to meet the requirements of the Clean Water 
Act do not have the resources to do that, and you know, we've 
struggled over this, we've authorized. We still don't have 
appropriations. This is serious business. Then when we look at 
the budget, hundreds of billions of dollars are needed to meet 
the real and pressing needs.
    So I must be honest with you, today if there was a vote 
taken, I couldn't support the process of blending. But I 
believe we could come to a conclusion whereby it is acceptable 
under very specific standards. I think we can do this. And I 
think the gentleman from Maryland set the pace. The money to 
make upgrades must come from somewhere, though. It's not going 
to fall out of the sky. The state of the communities and the 
state of the States is not very good.
    So we have to step up to the plate, since apparently the 
state of the Union is so terrific. Or is it?
    But we have to find the money to do this. I think this is a 
priority. We've made clean water a priority, Mr. Chairman, and 
I have faith in the direction you bring us in. But I hope that 
the EPA will have dialogue with us and not simply hand 
something down.
    Thank you.
    Mr. Duncan. Well, we will have the EPA here at another 
time, if we have some interest. But we just have this panel, in 
fact, I think a very balanced panel of all sides here for this 
hearing today so we can all learn more about this.
    Ms. Tauscher, did you wish to make a statement?
    Ms. Tauscher. Yes, thank you, Mr. Chairman, and thank you 
for holding this hearing today on an issue which I know is of 
importance to all of our constituents, and thank you for 
allowing me the opportunity to make a brief statement.
    The need to ensure clean water and protect our Nation's 
waterways from harmful discharge, including inadequately 
treated sewage, should be of paramount importance to all of us. 
First, and while it may not be the main concern of this 
morning's hearing, I believe that today's discussion of 
blending would be well served if it also included a discussion 
of Federal infrastructure financing and funding. We have done 
less than an adequate job in ensuring that Federal financing is 
available to meet the growing water infrastructure needs of 
this Nation. Unfortunately, the trend continues this year.
    Under the fiscal year 2006 budget, the Clean Water State 
Revolving Fund, the Federal funding which is responsible for 
assisting with infrastructure development, will be decreased by 
$370 million. At a time when every infrastructure dollar is 
valuable and we are asking our publicly-owned treatment works 
to meet stringent clean water standards, the Federal Government 
cannot abandon its role as partner in this process.
    Mr. Chairman, I have worked with my good friend Sue Kelly 
on infrastructure financing in the past. I look forward to 
continued efforts with her and my colleagues on the 
Subcommittee. Briefly, Mr. Chairman, like many of our 
colleagues and like a number of the panelists here today, I 
believe that the EPA's proposed blending policy is overly 
broad, and I fear that it may lead to the use of blending as a 
too-common practice. Our guidance on blending should be derived 
from the Clean Water Act itself, which states that an operator 
may bypass secondary treatment if it is, ``unavoidable to 
prevent loss of life, personal injury or severe property 
damage'' which includes ``damage to treatment facilities which 
causes them to become inoperable.''
    Blending should never be a common practice. I also 
understand that across the Nation, responsible POTWs have made 
substantial infrastructure investments to address the negative 
effects of wet weather events. In my own district, investments 
of more than $650 million have been made to build wet weather 
storage facilities and address the issue of infiltration and 
inflow into the system due to rainfall, snow melt and resulting 
high groundwater levels. We must protect both these investments 
and our duty to clean water by ensuring that blending does not 
become a common practice, but in extremely limited 
circumstances, a final way to address serious inflows.
    Of course, Mr. Chairman, I believe we all agree that our 
goal should be to end the practice of blending in order to 
ensure clean water. I look forward to today's panelists 
addressing the technological and infrastructure needs, which 
will allow all of us to move to that standard.
    Mr. Chairman, I yield back the balance of my time. Thank 
you.
    Mr. Duncan. Thank you very much.
    Mrs. Schwartz.
    Mrs. Schwartz. Thank you, Mr. Chairman. Thank you for 
holding this hearing today, and I appreciate again the 
opportunity to share some opening comments.
    I also wanted to acknowledge our colleague, Bart Stupak, 
who has taken such a leadership role on addressing the concerns 
many of us share about the proposed changes that are being made 
by the EPA. I think a number of us here represent areas, if not 
all of us, that have river ways, streams and really are very 
deeply concerned about what this change could mean to our 
districts.
    Certainly the concerns about the discharge of large amounts 
of untreated sewage in the event of what seems like a very 
general category of wet weather is something that many of us 
are really concerned about. I look forward to the panel and 
hearing what they have to say.
    After 30 years of really active work on cleaning up our 
waterways under the Clean Water Act, we have been able to not 
only protect the health of Americans by guaranteeing better, 
cleaner water, but I know in Pennsylvania we have just seen 
enormous opportunities from cleaner rivers and cleaner streams. 
That relates to of course recreation and the kind of fishing 
that's come back.
    We've seen rivers in Pittsburgh and Philadelphia being used 
for recreation and for economic development in ways that were 
really unimaginable given the unsafe, the lack of safety in the 
water four years ago. Lake Erie is completely different, and 
the city of Erie would tell you that, that the opportunities 
there are really enormous. I see that in my own district and in 
the Delaware riverfront some of the opportunities that exist 
now because it is cleaner and healthier.
    Having said that, there are over 9,000 miles of rivers, 
lakes and streams in Pennsylvania that are considered too 
polluted to be safe for fishing or swimming. So the possibility 
that we might in fact be moving backwards rather than moving 
forward and being able to guarantee a safer waterways and safer 
water is really something that concerns me greatly.
    Let me also state one other point. We have also seen, and 
Pennsylvania has an aging infrastructure in water and sewer. As 
a State senator, we addressed some of this in trying to provide 
some funding for replacement of some of these aging systems. 
But having said that, we know that we have actually put in, I 
know the city of Philadelphia has put in large sums of dollars 
to improve the water and sewer infrastructure. What we don't 
also want to do is to set a standard where we end up saying 
we're going to discourage those kinds of investments and in 
fact create incentives for any local community that has failed 
to do that. That would be moving in the absolutely wrong 
direction.
    Interesting little side note, Philadelphia actually had one 
of the earliest leaders in water treatment, its water works. We 
have just renovated it for historic purposes, you can come 
visit it on the Schulkyll River. We really were leading the way 
in the early 19th century on some of the ways we've treated our 
water. So I don't want to see us go backwards, either because 
of the effect on the health of our constituents, the health of 
all Americans, or the opportunity to use our river ways for 
recreation and economic development.
    So my questions for the panel will really be simply, how 
this moves us forward in guaranteeing clean water for the 
American public. If it moves us backwards, that certainly is 
the wrong direction. So I look forward to the panel and to the 
questions we will have an opportunity to ask.
    Thank you, Mr. Chairman.
    Mr. Duncan. Well, thank you very much, Mrs. Schwartz.
    We are going to go ahead and ask the panel to start taking 
their seats. Oh, Ms. Norton.
    Ms. Norton. Thank you, Mr. Chairman. I have only a few 
brief words to say. The subject is of special interest to me. 
If there are any real shortcuts, I'd like to hear them. because 
this region has one of the worst storm water overflow problems, 
I'm sure, in the United States. It comes because the system was 
originally built by the Corps of Engineers, we face a billion 
dollar problem.
    Frankly, there's blending, all right, the kind of blending 
we don't want, it's the kind of blending we're afraid of. 
Because when the water just overflows, there it goes into the 
Anacostia and the Potomac, ultimately into the Chesapeake Bay. 
Obviously if there was a shortcut that worked, that was not a 
threat to waterways and to water, everybody would embrace that.
    One really wonders if you can get around, yes, the very 
costly process of renewing our water infrastructure, which was 
often built, sometimes a century ago. For most localities in 
the United States, it's very old. When roads get to be old, you 
recognize that at some point they have to be fixed or 
reconstructed or paved. That is not the way we have dealt with 
the infrastructure for our water.
    I must say, you will find me very skeptical that blending 
is a shortcut that preserves the health of the American people 
and that preserves the health of our waterways. If there is a 
shortcut, despite my skepticism, I will be very open to 
considering it.
    Thank you, Mr. Chairman.
    Mr. Duncan. Thank you very much, Ms. Norton.
    As most of you know, the American Society of Civil 
Engineers recently graded the condition of the infrastructure 
throughout the country. They gave the wastewater infrastructure 
a grade of D minus. Ms. Johnson mentioned the estimated cost of 
the needs, the CBO, the Congressional Budget Office, the EPA 
and the Water Infrastructure Network estimated that the gap 
between current spending and needs investment could be as high 
as $200 billion or more over the next 20 years. Of course, Ms. 
Johnson referred to an even higher estimate.
    The problem is, much of this infrastructure is underground, 
and people just do not realize that the aging that Ms. Norton 
talked about.
    I read four or five years ago, a column that said you could 
put every family of four in the State of Texas and give them 
three acres of land each and leave the whole rest of the 
Country totally empty. It's just impossible to comprehend how 
huge this Country is and how much land there is, how much open 
space there is. But having said that, everybody is still moving 
out of the rural areas, because they say they want land, but 
they really don't. They want to be near the malls and the movie 
theaters. So most of our urban areas around the country are 
having these tremendous population increases, and increasing 
greatly the demands on the system.
    We passed a couple of years ago in this Committee, because 
this Committee was involved with it, in its origination, a 
combination of the Clean Water Act. As the New Republic 
Magazine pointed out about four years ago, the air and the 
water are both much, much cleaner than they were 30 years ago. 
We have made tremendous progress.
    But because of these increasing demands and the aging 
infrastructure, we have to continue to do more and do better. 
That's what this hearing is about.
    So I'm very pleased to introduce a very distinguished 
panel. We have Mr. Alan H. Vicory, Executive Director and Chief 
Engineer of the Ohio River Valley Water Sanitation Commission, 
from Cincinnati, Ohio; we have Mr. John H. Graham, Jr., 
Assistant Director of Water Quality Control Department, 
Maryville, Tennessee, in my district, one of my bosses. Glad to 
have you here, Mr. Graham.
    Dr. Joan B. Rose, Homer Nowlin Chair in Water Research, of 
the Department of Fisheries and Wildlife from Michigan State 
University in Lansing, Michigan; Dr. Adam W. Olivieri, 
Principal Engineer and Vice President, EOA, Inc.; Ms. Nancy 
Stoner, Director of the Clean Water Project for the Natural 
Resources Defense Council here in Washington, D.C.; and Mr. 
John C. Hall, President of Hall and Associates, also here in 
Washington.
    We certainly appreciate all of you taking time out from 
your busy schedules to come and be with us. We always proceed 
in the order the panelists are listed on the call of the 
hearing. That means, Mr. Vicory, you may go first. Your full 
statements will be placed in the record. All the committees and 
subcommittees, I think, in this Congress give the witnesses 
five minutes. We give the witnesses six minutes, but we cut you 
off. We bang the gavel at that six minutes, not to be impolite 
to you, but in consideration of the other witnesses.
    So Mr. Vicory, you may begin.

TESTIMONY OF ALAN H. VICORY, JR., EXECUTIVE DIRECTOR AND CHIEF 
 ENGINEER, OHIO RIVER VALLEY WATER SANITATION COMMISSION; JOHN 
   H. GRAHAM, JR., ASSISTANT DIRECTOR, WATER QUALITY CONTROL 
   DEPARTMENT, MARYVILLE, TENNESSEE; DR. JOAN B. ROSE, HOMER 
  NOWLIN CHAIR IN WATER RESEARCH, DEPARTMENT OF FISHERIES AND 
  WILDLIFE, MICHIGAN STATE UNIVERSITY; DR. ADAM W. OLIVIERI, 
 PRINCIPAL ENGINEER, VICE PRESIDENT, EOA, INC.; NANCY STONER, 
   DIRECTOR, CLEAN WATER PROJECT, NATURAL RESOURCES DEFENSE 
     COUNCIL; JOHN C. HALL, PRESIDENT, HALL AND ASSOCIATES

    Mr. Vicory. Thank you very much, Chairman Duncan and 
Congresswoman Johnson, Members of the Committee. I am pleased 
to be here today to talk about the issue of wastewater blending 
from a wastewater perspective. I think it's good to start out 
to talk a little bit about my employer, ORSANCO is the acronym 
for the formal name that you've mentioned. ORSANCO is an 
interstate compact commission, established in 1948 to abate 
interstate water pollution. Signatories to the compact are all 
the States along the Ohio River, some of which you mentioned 
earlier, as well as New York and Virginia. ORSANCO's board of 
commissioners are appointed by the Governors to represent their 
respective States, and there are several commissioners 
appointed by the President of the United States to represent 
the Federal viewpoint.
    Now, the compact under which we operate has been adopted in 
each of the States' laws and sanctioned by the U.S. Congress. 
As such, it is an agency with regulatory powers on equal par 
with any and all agencies that we work with, including U.S. 
EPA. Among the powers of ORSANCO is to adopt standards of 
treatment for discharges to interstate streams in the Ohio 
Valley that the commission deems necessary to achieve the 
compact's objectives.
    Now, blending is a concept that's not new to ORSANCO. In 
1997, this commission, after notice and public hearing, adopted 
in its regulatory requirements, and I have a copy here and I'd 
be glad to submit that if you're interested in it, adopted in 
its regulatory requirements the availability for blending to be 
practiced at municipal wastewater treatment plants, serving 
combined sewer areas that have primary treatment in excess of 
secondary treatment capacity. Our regulations focus on 
maximizing the treatment of wet weather flows from CSO systems, 
and thereby reducing the frequency and duration of sewer 
overflow events.
    Blending facilities in our jurisdiction must be properly 
maintained, provide maximum flow-through secondary, and 
ultimately, and I'd like to emphasize this one, meet Ohio River 
water quality standards.
    As the director of ORSANCO now for 18 years, I recall 
fairly vividly the discussions in 1996 about this issue. There 
really wasn't a great deal of discussion amongst the 
commissioners. There was a pretty strong consensus that the 
prevailing feeling should be, in our blending policy, as it 
states, the need to promote the maximum amount of treatment and 
disinfection to the maximum amount of flows. Otherwise, as our 
blending policy recognizes, untreated sewage, totally untreated 
sewage, could be released elsewhere in a combined sewer system 
and water quality would suffer.
    Now, ORSANCO, I think our track record in water pollution 
stands on its own. This organization adopted secondary 
treatment two years before the Federal Clean Water Act, and was 
instrumental in the science issue of bacterial standards for 
rivers. So our track record, I think, in terms of being on the 
edge, if you will, in water pollution control I think is there.
    But our board of commissioners, inasmuch as they represent 
in the body of 27 people, State agency representatives, State 
EPAs, U.S. EPA is on the commission, water and wastewater 
utility administrators, folks from the legal profession, folks 
from industry, that ORSANCO's requirements focus themselves on 
the Ohio River, a large stream, and tend to be a bit broader, 
and in a sense, pragmatic and broad-based in its concept. I 
think that's important to point out.
    I think our policy that we have on the books speaks to 
this. And again, if we did not have the policy in place, I 
think we would have situations in some communities, at least, 
where if the flows were not received for at least primary 
treatment they would be released as combined sewer overflow 
structures elsewhere in the system. And a concern would be, 
many of those sewer overflows would be on smaller tributaries, 
which may present an even higher level of public health risk.
    In addition, if blending were not possible, I think it 
would probably exacerbate the already huge challenge that 
municipal treatment facilities have in trying to manage the 
avalanche of wet weather flows that they typically receive, 
given the fact that we have many older communities in the Ohio 
River area, Pittsburgh, Cincinnati, Louisville, Wheeling, West 
Virginia. Among those four communities alone we probably have 
upwards of a thousand combined sewer overflow points.
    Now, ORSANCO doesn't view blending as an expedient 
substitute for proper management of wastewater infrastructure, 
or of wet weather flows. Blending is but one of a suite of 
integrated actions that communities need to be looking forward 
to and implementing at the end of the day by the best regime 
for managing wet weather flows. Cincinnati alone is going to be 
spending a billion and a half dollars over the next 20 years 
correcting its sewer overflow points. And so it's just very 
important that we try to use the facilities that we have to the 
maximum extent.
    It's important, I point out that this is a policy for the 
Ohio River. It may not be best policy elsewhere. There's lots 
of different regimes out there, and in my testimony I indicate 
some of the important questions that perhaps need to be 
reviewed, if you will, in the context of looking at the 
possibility of blending and some of the other areas. That's 
there for the record.
    I want to kind of sum up that there's been some concern 
about the possibility that blending being available might 
precipitate communities using that possibility cavalierly. My 
experience in working with wastewater treatment utilities on 
the Ohio River and nationally is that these people are 
professionals, this is what they do. They really want to 
provide the maximum amount of treatment that they possibly can, 
given the facilities that they have. And so I conclude, again, 
with a word of thanks for the opportunity to provide this 
testimony and of course, will be available to answer any 
questions at the proper time.
    Mr. Boustany. [Presiding] Mr. Vicory, we thank you for your 
testimony and look forward to asking questions as we move 
forward.
    Next, the Committee will entertain the testimony of Mr. 
Graham. Mr. Graham is Assistant Director of the Water Quality 
Control Department in Maryville, Tennessee. Welcome, Mr. 
Graham.
    Mr. Graham. Good morning, Commissioner, and Chairman. I'd 
like to thank you for allowing me to testify this morning, and 
I greet you and the Committee members.
    My name is Jack Graham, and I am the Assistant Director of 
the Water Quality Control Department for the city of Maryville. 
I am speaking for the city and also for the Tennessee Municipal 
League. Thank you for holding this important hearing about 
blending.
    Blending is a way of maximizing treatment and protecting 
the public health. The misinformation on blending is 
substantial. To help clarify that, I hope to discuss this 
morning how the issue started, the impacts on our State and how 
the misinformation has actually delayed the resolution of this 
issue.
    Our wastewater plant, like many others, is designed to 
blend primary and biologically treated wastewaters to maximize 
the wet weather flow that can safely be treated prior to 
disinfection and discharge. By increasing wet weather plant 
capacity, blending significantly reduces those collection 
system overflows of raw sewage. We meet the Clean Water Act 
permit limits for public health and environmental safety in our 
discharges when blending. The blended discharge is fully 
protective of the public health.
    Blending ensures that the biological system within the 
plant, which is sensitive to hydraulic changes, is also 
protected. Many wastewater plants in Tennessee specifically 
incorporate blending processes as part of their design and have 
received Federal grants for construction.
    Historically in Tennessee, in early 1999, without any 
public notice, EPA Region IV informed Tennessee that blending 
violated the Clean Water Act's secondary treatment bypass 
regulations. This announcement came 20 years after the adoption 
of the regulations. And based upon EPA Region IV's position, 
the State began issuing permits that prohibited blending. In 
June of 2000, EPA called a public meeting in Chattanooga to 
inform us that blending was prohibited. It was a complete 
surprise, since EPA itself had approved and funded some of the 
plants that blend. We found out later that EPA headquarters 
here in Washington did not approve the Region IV position.
    The cost to eliminate blending, and we've done engineering 
studies on five local plants to us, is in excess of $127 
million. Statewide, it's very much significantly higher. This 
is in addition to the monies we are already spending for 
infrastructure improvements to our collection systems. A 
blending prohibition would not benefit the public. Blended, in 
fact, blended effluent quality of our facility is far better 
than the water that is currently in our receiving stream.
    Given the massive costs and the lack of environmental 
benefit, the Tennessee Municipal League requested that EPA 
headquarters address this matter. EPA headquarters itself has 
sent a letter and confirmed to Senator Frist and to all the 
Tennessee delegation that the existing rules do not prohibit 
blending. Nonetheless, this issue is unresolved.
    Our ability as the city of Maryville to plan wastewater 
facility improvements is at a standstill. We need to and want 
to design a cost-effective plant expansion. We will meet the 
discharge limits, we will treat all the flows reaching the 
plant and we need to protect the biological process. But we 
can't proceed to get approval and to complete the design until 
the ongoing regulatory confusion is solved.
    Blending must be resolved so that municipal facilities like 
ours may continue to operate properly and to plan for the 
future. There are several misconceptions that have come to 
light. First, the idea that blending will decrease the efforts 
to maintain the infrastructure. Allowing blending affects the 
need for cities to invest in their wastewater infrastructure, 
yes. But we have to control the water that gets to our plant. 
You can't just keep on expanding plants. Blending allows you to 
handle the peak flows.
    For example, Maryville spends $1.6 million in this coming 
year on collection system improvements. And we are planning to 
spend $12 million on a plant expansion. But we need to know 
what the rules are to let us design that and complete it.
    Second, many Congressional offices were informed by 
activist groups that blending presents a public health threat, 
even when the permit limits are met. Such claims are a basic 
attack on the very structure of the Clean Water Act. Moreover, 
the statements are false.
    The Rose Report, issued by NRDC, was based upon a 
mischaracterization of the Washington, Pennsylvania wastewater 
plant operations. I know the manager, Ray Dami, and he 
confirmed that many of the assumptions about plant operations 
were simply wrong, and that no one from NRDC had ever visited 
the facility to discuss its operations.
    Mr. Dami's correspondence confirms that his plant, first, 
does not blend raw sewage; the disinfection process operates 
effectively during peak flows; and that the blended effluent 
that he discharges is cleaner that the receiving stream. 
Pennsylvania generally recognizes that body contact recreation 
does not occur in cold weather. The elderly and small children 
are not swimming under the conditions assumed in the Rose 
Report.
    Third, some activist organizations have resorted to scare 
tactics, using outrageous claims to trigger thousands of 
letters from the general public against blending. Finally, if 
future research shows that the existing wet weather treatment 
practices are of concern, then we need to set tight standards 
with State output and let the engineers and the plant operators 
tailor the solution to fit the local conditions to meet the 
Clean Water Act requirements while taking advantage of all the 
options out there, non-biological processes like disinfection, 
chlorine or UV, as well as new, innovative technologies. We 
will get cleaner wastewater for our municipal dollars.
    In summary, I would like to thank you all for inviting me 
to testify and stress that we need a solution to this issue to 
allow us to proceed to treat the waters in the best way we can 
as professionals in the wastewater industry.
    Mr. Boustany. Mr. Graham, thank you for your testimony.
    The Committee will now hear testimony from Dr. Joan Rose, 
the Homer Nowlin Chair in Water Research in the Department of 
Fisheries and Wildlife at Michigan State University, East 
Lansing, Michigan. Welcome.
    Ms. Rose. Good morning, Mr. Chairman and members of the 
Committee.
    I am a water pollution public health microbiologist. I have 
been examining wastewater for pathogens for over 20 years. It 
includes a whole array of different types of microorganisms. 
Microorganisms actually fall into three categories; that is the 
bacteria, which include e-coli and are standard fecal coliform; 
includes the parasites, cryptosporidium and giardia, and you've 
heard a bit about those; and it includes viruses. That may 
include something like the Norwalk virus which has caused the 
cruise ship outbreaks on things like coxsaki-B viruses.
    These pathogens do cause disease when they contaminate 
drinking water. And they do cause disease when they contaminate 
recreational waters. And we know that our sensitive populations 
are at greatest risk: that is our young children, our elderly 
and our immuno-compromised. If they are exposed, they are going 
to be at the greatest risk.
    What have we learned in the last 30 years since the Clean 
Water Act has passed, especially the last decade, the last 10 
years? There are a lot of these contaminants we can now find in 
untreated sewage, and we have methods now to look. We know that 
our e-coli and our fecal coliforms, and this has been supported 
by the National Academy of Sciences, do not represent all 
constituents of harm in sewage. And you know that in the law 
there is that leeway to look at the constituents that cause 
public harm. Our indicators do not represent these pathogens.
    I have sampled for viruses and parasites and bacteria in 
untreated and treated sewage. I would just like to talk a 
minute about removal by the processes. Primary treatment 
removes things by settling, by taking the solids, pulling them 
out. It pulls out some of the big stuff, like the worms, the 
helmus, they can be removed. But it's not very good at pulling 
out the little things, particularly the viruses. It pulls out 
some of the bacteria, pulls out some of the protozoa. And 
plants vary. You will see ranges of how much primary removes, 
anywhere from 50 to, say, 90 percent.
    Secondary, though, removes more of these organisms. It can 
remove anywhere from 80 to 99.9 percent. And again, there is a 
wide range of secondary facilities out there in terms of how 
they are operating and their design as well as their flow.
    I think the people who say primary removes more than 
secondary have not taken a virus or a parasite sample 
themselves and examined it. And I don't think they've done an 
adequate job of looking at the literature. So if we have 1,000 
giardia cysts in untreated sewage, we could remove 50 percent 
by primary, we'll have 500. We could remove 99 percent by 
secondary, we're going to have 56 left as we discharge. All you 
have to do is do the math. If you add in more, you're going to 
add in more.
    Now, does present a public risk of going swimming? This is 
a community issue of how they want to protect their water in 
the future.
    I want to talk briefly about disinfection as well. We know 
that disinfection is an important process for control of these 
microbes. And it is influenced by upstream processes. Recent 
studies by the University of North Carolina and Duke have shown 
that if you add in increased particles this affects how well 
you can kill these organisms by both chlorination, the common 
disinfection process, and UV. So it's going to affect it.
    In one case, in one study they actually added secondary 
effluent, 10 percent, back to drinking water. And we can kill 
our viruses very well in drinking water. But in this particular 
study, that destroyed the ability to kill viruses in drinking 
water, when they added 10 percent of secondary effluent back 
in.
    So we also know that these organisms have varying 
resistance. Cryptosporidium is extremely resistant to 
chlorination. We cannot kill it with chlorination. We have to 
physically remove it. We can kill it with UV. However, the 
viruses are extremely resistant to UV and more susceptible to 
chlorination. So we do need to look at all these processes.
    I was surprised when I started looking at water quality 
data on blended effluent. There are some facilities that say 
they blend. You cannot find the data on the volumes that they 
combine and you cannot find actual water quality data during 
blending and non-blending events. I took one facility that had 
a design and said, this is one way that they may blend, and I 
did the math.
    I also looked at the Milwaukee data, which is minimal, in 
which you could compare concentrations of e-coli and pathogens 
in blended and non-blended. Basically, both from a math 
standpoint and a data standpoint, there was an increase in 
pathogen concentrations during blending, a thousand-fold 
increase, in the Milwaukee data, we got a hundred-fold increase 
in the mathematical calculation.
    I think that wastewater treatment and utilities and the 
industry are unsung heroes. The public doesn't understand the 
benefit that wastewater provides in many cases. I do think that 
more monitoring is needed. I do think more investment in 
treatment and treatment operations and I do believe that in 30 
years, we need to look at the standards for protection of 
public health and take into consideration new criteria and 
goals for water quality. I appreciate both the State and the 
Federal leadership in this role.
    Thank you.
    Mr. Boustany. Dr. Rose, thank you for your testimony.
    We will now hear testimony from Dr. Adam Olivieri, 
Principal Engineer, EOA, Inc., in Oakland, California. Welcome, 
Dr. Olivieri.
    Mr. Olivieri. Good morning, Chairman, and members of the 
Committee. I would like to thank you, Chairman Duncan and the 
members of this Committee for your continued commitment to 
clean water issues in California and nationwide. Your 
dedication to solving the challenges our communities face 
across the Nation is essential to achieving the goals of the 
Clean Water Act.
    The purpose of my testimony here is to improve the 
understanding of the public health implications associated with 
the practice of wastewater treatment plant blending relative to 
exposure to microbial pathogens. There is significant concern 
regarding the current practice of blending treated effluent 
during high treatment plant flow events prior to discharge to 
local receiving waters and the potential public health risk 
associated with probably exposure to pathogens in receiving 
water. My testimony on this subject is based on my education, 
experience and the evidence in the scientific literature.
    There is concern regarding potential public health risk 
associated with exposure to waters receiving discharge from 
treatment plants that are blending with stormwaters. However, a 
number of factors support the use of a risk-based management 
approach that allows for the continued use of blending under 
conditions where current water quality criteria are met and 
public health is protected. It is my understanding that water 
quality criteria are met in receiving waters at some facilities 
that utilize blending.
    Further, blending is just one part of the puzzle. As will 
be discussed, risk assessment, including exposure assessment, 
allows public agencies to sort out what factors are important 
and provides the foundation for balance risk based management 
decisions. Today the public awareness and concern about the 
safety of the Nation's water resources is high, and thus the 
public expectations are high as well. In the United States, 
there are over 15,000 wastewater treatment facilities, most 
providing primary, secondary treatment and some form of 
disinfection.
    When considering infectious diseases implications of human 
exposure to wastewater, the following factors need to be 
considered. For water-borne illness or disease to occur, an 
agent of disease, that is, a pathogen, must be present. The 
agent must be present in sufficient concentrations to produce 
disease, or a dose, and a susceptible host must come into 
contact with the dose in a manner that results in infection or 
disease.
    Although a wide range of pathogens have been identified in 
raw wastewater, relatively few pathogens appear to be 
responsible for the majority of waterborne illness caused by 
pathogens of wastewater origin. The pathogens of public health 
concern based on food-borne disease in the U.S. were identified 
by the CDC. Many of these pathogens find their way into 
domestic wastewater. Although wastewater characteristics are 
highly variable, there is a high probability that microbial 
pathogens are present in raw wastewater at any given time and 
location.
    One of the important objectives of wastewater treatment is 
to remove or inactivate the pathogens. For time, I'll skip a 
few pages.
    Risk assessment has generally been the tool used to 
estimate risk associated with environmental exposures to 
pathogens. Exposure is the most important link in the chain of 
infection and disease. During blending events that coincide 
with extreme wet weather events, people tend to avoid swimming 
or recreating in receiving waters. So the potential for human 
contact is minimal. In other words, the important link, 
exposure, is missing.
    Microbial risk assessment involves evaluating likelihood 
that an adverse health effect may result from human exposure to 
one or more pathogens. The infectious disease process in a 
population is fundamentally a dynamic process. Therefore, the 
most rigorous and scientifically defensible approach for 
mathematically modeling the infectious disease process is to 
employ a dynamic model.
    However, the reported results of a very simple static 
assessment conducted by Katonak, et al., was used to evaluate 
the potential public health concerns associated with blending, 
and represents an estimate of the theoretical probability of 
illness or infection for a single exposure event for one 
individual. The static estimate is based on a number of 
conservative assumptions, for example, knowing inactivation 
from disinfection. It only provides a gauge from which 
potential risks to an individual may be evaluated for a single 
exposure event.
    Clearly, as the authors noted, the estimated risks will be 
lower if all flow is treated. However, the authors estimated 
risks even though it was based on conservative assumptions, are 
within the range of risks considered acceptable by U.S. EPA 
national bacterial water criteria. From a risk management 
criteria, the number of people exposed during events from 
blended effluent as discharged must be taken into 
consideration. Risk of infection disease from a single exposure 
event above some pre-determined tolerable level does not 
necessarily imply that public concern is warranted. 
Specifically, the expected number of cases from an exposure 
event can be thought of as the product of probability of 
illness or infection in the number of people exposed.
    The protection of public health clearly dictates that when 
more individuals are potentially exposed to pathogen, a greater 
level of concern and thus protection is warranted when making 
risk management decisions. For example, one reason a risk 
manager may decide to implement a control strategy at a 
specific location over another can be based on the actual or 
expected number of individuals potentially exposed.
    Water quality regulation strategies endorsed by EPA follow 
the above public health concept. In the Ambient Water Quality 
Criteria for Bacteria, EPA defines an acceptable swimming 
associated gastroenterital illness rate and derives water 
quality criteria for designated beach areas, moderately used 
full body contact recreation areas, lightly used full body 
contact recreation areas, and infrequently used full body 
contact recreation areas.
    In summary, a one-size-fits-all approach to address the 
potential public health concerns associated with blending would 
probably divert limited resources towards efforts where a 
commensurate public health benefit would not be realized. A 
risk-based management approach would better allow research to 
be focused on the most important public health concerns and at 
the same time protect the beneficial use of the receiving 
waters.
    It should be recognized that many aspects of the estimation 
and evaluation of potential health risks associated with 
exposure to microbial pathogens during recreational activities 
and the potential relationship to the use of blending as a 
management tool to treat wastewater during peak flow conditions 
are poorly understood. However, based on the above discussion, 
a number of factors support the use of a risk-based management 
approach that allows for the continued use of blending under 
conditions where current water quality criteria are met and the 
public health is protected.
    I hope that above discussion helps improve the 
understanding of the nature of the public health implications 
associated with the practice of wastewater treatment plant 
blending relative to exposure to pathogens. I would be happy to 
accept any questions.
    Mr. Boustany. Thank you, Dr. Olivieri.
    The Committee will now recognize Ms. Nancy Stoner, Director 
of Clean Water Project, Natural Resources Defense Council here 
in Washington, D.C. Welcome and thank you.
    Ms. Stoner. Thank you.
    Good morning. We are here today because we are at a 
crossroads in one of the most important Clean Water Act 
programs: the program to provide secondary treatment for sewage 
established in the 1972 Clean Water Act. That program has been 
very successful in reducing the volume of sewage dumped into 
lakes, rivers and coastal waters. But there's lots of work 
ahead even to maintain that progress, much less to continue to 
reduce sewage pollution. EPA is making it difficult for 
communities by slashing the funding available to them for sewer 
maintenance and upgrades through America's Clean Water Fund, 
the Clean Water State Revolving Fund.
    NRDC appreciates the leadership of the Chair, the Ranking 
Member and many other members of the Subcommittee in supporting 
restoration of that funding to ensure that communities have the 
resources they need to provide effective sewage treatment.
    But this hearing is not primarily about funding, but 
instead, about treatment standards. Should sewage treatment 
plants be required to provide effective treatment for sewage 
under all routine operating conditions, or should they be 
allowed to skip such treatment and rely primarily on dilution 
instead of treatment during wet weather. This is a question 
that I believe Congress already answered back in 1972 when the 
decision was made to upgrade from primary treatment, which 
removes only large solids from sewage, to secondary treatment, 
which typically uses microbes to eat the pollutants in sewage.
    Sewage is filled with pollutants that make people sick, 
close shellfish beds, make beach waters unsafe, contaminate 
drinking water sources, damage coral reefs, feed toxic algal 
blooms and rob the water of oxygen that fish need to breathe. 
Secondary treatment removes the bulk of these pollutants from 
sewage: bacteria, viruses, parasite, toxic organics, metals, 
oxygen-depleting substances and solids. It also provides 
significant removal for nutrient pollution, although advanced 
removal techniques are needed for discharges into nutrient-
impaired waters.
    Primary just doesn't do the job. All it does is settle out 
the larger particles through gravity. No transformation of the 
sewage takes place. And because primary effluent is so cloudy, 
it cannot be effectively disinfected. Discharging effluent that 
has not received secondary treatment does not protect public 
health or the economy from the adverse effects of sewage 
pollution: water-borne illness, shellfish contamination, beach 
closures and so forth.
    EPA's proposed blending policy would attempt to legalize 
discharges of sewage effluent after only solids removal when 
they are sufficiently diluted to meet end of pipe concentration 
limits. This policy would put more inadequately treated sewage 
into the environment. That is why it has been opposed by a 
number of States, public health officials, conservation groups, 
shell fishermen and a number of offices within EPA itself. NRDC 
requests an opportunity to put into the record its compilation 
of quotations from those filing objections with EPA on the 
proposed blending policy.
    EPA's proposed policy does not require the use of 
alternative treatment approaches that have been the subject of 
much discussion at this hearing. It does not require 
disinfection; it isn't limited to wet weather events of any 
particular size; and apparently most importantly to those who 
support it, it doesn't require an assessment of whether there 
are feasible alternatives to discharging inadequately treated 
sewage that should be employed instead.
    The assessment of feasible alternatives is the core of what 
the bypass rule requires. It requires an analysis of the sewage 
treatment system as a whole, to figure out how to maximize 
treatment by aligning pipes, cleaning out pipes, offloading 
stormwater, storing sewage until it can be treated and so 
forth. Those are the types of measures that have typically been 
required of sewer operators over the years to reduce excessive 
infiltration and inflow and assure that sewage can be 
effectively treated.
    EPA's proposed blending policy undermines the incentives 
for sewer operators to look system-wide for solutions, 
essentially to fix their leaky sewer system. It's a penny-wise, 
pound-foolish approach in our view. The problem will only get 
worse because it isn't being effectively addressed. And 
remember that leaky pipes not only leak in when it rains, but 
they also leak out when it doesn't. That is, they leak raw 
sewage into surface waters and groundwater.
    As one sewer operator who served on a panel with me in a 
Water Environment Federation conference put it, ``If you remove 
excessive infiltration and inflow, you don't need to blend.'' 
Exactly. EPA's policy requires sewer systems to fix their 
problems, not discharge largely untreated sewage because of 
their failure to do so.
    NRDC fully supports and urges every member of the Committee 
to co-sponsor the Save Our Waters from Sewage Act, H.R. 1126. 
This bipartisan legislation would block EPA from finalizing its 
proposed sewage blending policy, require EPA to implement the 
existing Clean Water Act rule that mandate full sewage 
treatment under routine operating conditions and require public 
notification of discharges of inadequately treated sewage.
    Finally, let me reiterate that we cannot expect communities 
to do it alone. The Federal Government needs to assist them, 
just as it did in the 1970s and 1980s, to maintain and upgrade 
their aging sewer systems and sewage treatment plants. Surveys 
show that Americans are well aware of the importance of 
protecting our rivers, lakes and coastal waters from sewage 
pollution and are willing to pay for it. We need to move 
forward with the creation of a long-term funding source, a 
clean water trust fund which is supported by more than 80 
percent of the American public.
    I understand that the Subcommittee is planning additional 
hearings on clean water funding issues and I commend you for 
doing so. Thank you for inviting me to testify today. I would 
be happy to answer any questions you may have.
    Mr. Boustany. Thank you, Ms. Stoner.
    The Committee will now recognize Mr. John Hall, President 
of Hall and Associates here in Washington, D.C. Thank you, Mr. 
Hall, and welcome.
    Mr. Hall. Thank you, and good morning, Mr. Chairman and 
Committee members. My name is John Hall. I am speaking today on 
behalf of municipal organizations from Tennessee, Pennsylvania, 
Kansas, New Jersey and Minnesota.
    Blending is a common wastewater engineering design practice 
promoted by EPA since the 1970s. Therefore, I was quite 
surprised when several regional offices began to assert that 
blending was a prohibited plant design. It's a bedrock 
principle of the Clean Water Act that the agency does not 
dictate plant design or the selection of the treatment process 
to meet the Department limits set. EPA has frequently 
reiterated this position.
    We contacted EPA headquarters in late 1999 to get this 
matter resolved. EPA headquarters acknowledged that the 
regional blending prohibitions were never authorized and that 
``State permitting authorities had considerable flexibility'' 
to permit blending.
    EPA was in the process of issuing a blending clarification 
when advocacy groups began to assert that this was some type of 
regulatory rollback conjured up by the Bush Administration that 
would allow the discharge of raw sewage. These groups published 
ads in newspapers and filed thousands of objections with EPA, 
making the same assertions. Attached to my testimony is an 
example of an ad published in the Pittsburgh Press. It states, 
``We already have too much raw sewage in our water. So why is 
President Bush making it worse? Stop the blending policy.''
    H.R. 1126 is apparently a product of these same 
representations. Blending, however, does not involve the 
discharge or dumping of raw or inadequately treated wastewater. 
The wastewater is treated to meet all applicable public health 
standards.
    Now, the primary claims of the various environmental 
activists have been two-fold. One, that the secondary treatment 
rule mandates the use of biological treatment, and two, that 
the bypass rule mandates that all flows pass through all 
processes at all times. As documented in detail in my written 
testimony, the preambles to both of these rules, the judicial 
decisions involving these rules, plainly confirm that designing 
and operating a plant to blend is not and has never been 
prohibited under Federal law.
    The fact that the bypass rule doesn't prohibit blending 
explains why EPA routinely grant funded blending facilities 
throughout the Country. If the activity were illegal under 
Federal law, the Federal construction grant regulations would 
have prohibited the funding of these facilities. I worked in 
that program for four years.
    Regarding biological treatments, in 2000, Congress asked 
EPA to identify the best method for treating wet weather flows. 
That was part of the Wet Weather Water Quality Act of 2000. 
EPA's 2004 Congressional Report concluded that non-biological 
methods were the most effective at addressing pathogens and 
other pollutants.
    The contrary assertions of various activist groups, 
therefore, don't really have a good factual or legal basis. In 
particular, NRDC's characterization in their testimony that the 
1987 bypass rule, about the bypass rule decision is wrong. In 
that case, EPA expressly stated and the court agreed that the 
bypass rule did not dictate plant design and that split flow 
and seasonal treatments, which is what blending is, is not a 
bypass. EPA clarified that the rule was intended to prevent 
parties from turning off unit processes. Blending certainly 
doesn't turn off any unit processes. In fact, it promotes the 
maximum use of the technology. It pushes it to the edge until 
it can't take any more.
    The claims that the bypass rule requires all flows to pass 
through all processes at all times is simply incorrect. In 
fact, if such biological treatment were required per H.R. 1126, 
EPA itself has estimated that the nationwide costs of that 
requirement would range somewhere between $160 billion and $210 
billion. There's a reason for that. Biological treatment is not 
capable of handling these kinds of dynamic peak flows. So you 
would have to do something extraordinary to it to make it 
handle those flows.
    Now, in other testimony, the groups have asserted that 
secondary treatment is essential to pathogen reduction. 
However, in 1976, EPA specifically amended the secondary 
treatment rule to eliminate pathogen reduction requirements as 
unnecessary and environmentally detrimental. EPA stated that, 
``Pathogen reduction necessitates the use of a separate, non-
biological unit process specifically designed for 
disinfection.'' As mandated by EPA, States subsequently set 
water quality standards and set disinfection requirements as 
needed, seasonally and on a case by case basis for the past 30 
years.
    Now, there are several critical factual points that were 
omitted from Dr. Rose's submitted testimony that confirm the 
pathogen threat in the earlier analysis submitted--greatly 
exaggerated--and the implied solution, biological treatment, is 
simply unnecessary. Number one, while claiming cryptosporidium 
is a grave concern, she failed to inform the Committee that her 
own blending threat analysis demonstrated that the swimming 
risk associated with this pathogen in effluent discharges is 
below the accepted swimming standards. It's not at a threat 
level.
    Secondly, while this organism is certainly resistant to 
chlorine, it is easily treated with UV disinfection as 
specified in the detailed study she cited in her report. So if 
you want to treat it, you don't put in more biological, you put 
in UV. Last, her testimony acknowledged that giardia and 
viruses are reduced by chlorine, but her threat analysis gave 
no credit to chlorine disinfection, thereby significantly 
overestimating the threat.
    In conclusion, blending has been and continues to be one of 
the most cost-effective means to process peak wet weather 
flows, while maintaining a high quality effluence. Claims of 
public health threat or illegal operation are misplaced, and as 
Mr. Graham testified, disruptive of State programs that seek to 
minimize overflows while ensuring effective plant operations.
    I thank you for your attention to this important issue and 
would be happy to answer any questions you might have in this 
regard.
    Mr. Boustany. We thank you for your testimony, and now we 
will start our first round of questions. We appreciate all of 
your testimony, thank you very much.
    Let me start by offering the Ranking Member time to ask 
questions. Mr. Pascrell?
    Mr. Pascrell. Thank you, Mr. Chairman.
    Mr. Hall, blending may be cost-effective, but 30 percent of 
the water that we assess, and this has been fairly consistent, 
does not meet water quality standards. Would you please respond 
to that?
    Mr. Hall. Certainly. And actually, there's information--
    Mr. Pascrell. Is that correct or incorrect?
    Mr. Hall. Thirty percent of--
    Mr. Pascrell. Of assessed water. We can't assess all the 
water, all the drinking water. The water that we assess, 30 
percent of it is unacceptable. Is that true or untrue in your 
mind?
    Mr. Hall. There are a significant percentage of waters in 
the State that do not meet bacteriological standards, 
particularly in wet weather conditions. Failing to meet those 
standards generally is not a function of municipal wastewater 
discharges, as demonstrated by the data appended to Mr. 
Graham's testimony and that for Ray Dami. They measured 
upstream and downstream of their treatment plants during wet 
weather. And their effluent were far cleaner. The effluent were 
below the water quality standards, but the background water 
coming to them was above the standards. That water was not 
caused by wastewater discharges.
    So what we're seeing around the Country very often is, 
during wet weather conditions, people walk their cats and dogs, 
you have animal operations, even in State parks, deer, things 
like that, you'll see bacteria standards exceeded during wet 
weather. And I'm not sure that those exceedances actually pose 
a health threat, because I understand animal bacteria are 
different from human. But as they are measured by the adopted 
water quality standards, often the numbers are higher than the 
applicable standards.
    Mr. Pascrell. Mr. Hall, the figure, as I can find, is a 
pretty accurate figure. It would seem to me, you're the 
professional, but it would seem to me that we would want to 
increase the amount of assessed water as meeting those 
standards. And I would like to know, Dr. Rose, what did you 
think of his answer?
    Ms. Rose. Well, as I said, I think that some of, you look 
at what's going on under the Safe Drinking Water Act and the 
Drinking Water rules, they are acknowledging the parasites, 
cryptosporidium and giardia, and viruses as a concern. In fact, 
in 50 years of outbreak data, there was a significant 
statistical relationship between rainfall and when there were 
outbreaks in water supplies. So we know that our drinking water 
systems are vulnerable during these events and these pathogens 
are getting in.
    One of the problems with the bacterial standards is that 
they are coming from a variety of sources. But if we look at 
human enteric viruses or we use source tracking methods, we can 
show that they are coming from the wastewater.
    Mr. Pascrell. But would you agree with my figure?
    Ms. Rose. Yes, I would, and I think--
    Mr. Pascrell. What do you think about that? Is that 
acceptable? I mean, to listen to Mr. Hall, and this is not to 
disagree with him, but to listen to Mr. Hall, that is an 
acceptable, consistent figure, which if you look back over the 
last 10 or 15 years, has been around 30 percent, what am I 
missing here? Shouldn't we be trying to improve that number?
    Ms. Rose. I think that many communities are trying to 
improve that. If you look at TMDLs and impaired waterways, they 
are spending a lot of money on assessment of those waters and 
the watersheds. If you look at the city of New York and the 
investment they've made in advanced wastewater treatment, you 
look at Cincinnati and Kentucky right now, are looking at 
issues of wastewater treatment, advanced treatment, in fact, 
upstream of the drinking water supply, closure of beaches. I 
certainly think that we should be moving in the direction of 
trying to improve the water quality.
    Mr. Pascrell. Mr. Graham, I listened very carefully to your 
testimony. It would seem to me, and I want you to get me on the 
right path, if I'm not on the right path, what we need to do is 
try to avoid litigation and get everybody in a room and come up 
with an acceptable solution, which may include blending under 
specific standards. But when you say we need a solution, that 
does not necessarily mean we need the solution at hand.
    I want your comments.
    Mr. Graham. Representative, I do not know what the solution 
is. I wish I did. But I think where the thrust of national 
policy and State policy has been is to try and address each set 
of waters to set standards of what can be discharged into them. 
I think as has been said by I think everyone up here, blending 
is one of those tools, along with new technologies that may be 
coming down the pike, disinfection and other methods of 
treatment to open the bag of what the engineering tools are to 
allow operators and plant designers to meet the discharge 
limits that the environment needs.
    I think that's where, not to say blending is the only 
solution, it isn't. But it is one of those tools that should be 
left in the bag. When you can meet the discharge limits and 
you've already got your plant operating at full bore, what do 
you do with the extra water that comes down? We can discharge 
it by letting it overflow back upstream, or we can bring it in 
as blended, provide the maximum amount of treatment we can to 
it, and then still meet those discharge limits as we put it out 
into the streams.
    Mr. Pascrell. Ms. Stoner, if I may, Mr. Chairman, just to 
complete, you said that we are at a crossroads. And we probably 
heard that 10 years ago, but okay, we'll accept right now we're 
at a crossroads. Am I naive to ask the question of how do we 
get the folks in the room to come up with a solution? I mean, 
in the rules, there's like one paragraph that deals with what 
are the clean water standards, and there's 300 pages on the 
exceptions.
    So how, in that atmosphere, in that background, in that 
legacy are we going to get folks that you talked about and that 
everybody is talking about in a room to come up with something? 
Do you envision blending never being a possibility under 
different standards that exist today?
    Ms. Stoner. No, actually, that's not true. What we're 
trying to do is to implement the existing rule that says that 
full treatment should be provided whenever it's feasible--
    Mr. Pascrell. But if that isn't possible, Ms. Stoner, if 
that's impossible because of the resources that are not 
available, then we need to have another option, rather than go 
to court every time there's a problem. That's not solving the 
problem.
    Ms. Stoner. I absolutely agree with you. I have always been 
willing to talk and think that we should be able to solve this, 
because the existing rule sets the right standard where 
blending is disfavored, full treatment is favored, and an 
analysis needs to be made of the feasible alternatives, so that 
we can maximize treatment. Everyone here on the panel actually 
said that they supported maximizing treatment, I believe.
    Mr. Pascrell. Right.
    Ms. Stoner. That's what I support also. EPA's proposed 
blending policy does not do that. It says primary treatment, 
and it says little else in terms of maximizing the treatment. 
It's not implementing the law. That's what we need to do. And 
we need to figure out how to do it together.
    Mr. Pascrell. Okay, we've got six experts here whom I have 
a great deal of respect for. I'd like to put you all in a room 
with EPA and come up with a solution. You know what's 
fascinating is that we have tried, we have authorized at the 
leadership of this Chairman, to authorize, reauthorize 
legislation to provide funding for the CSO problem that we had. 
We can't get appropriations.
    So you know, we talk out of both sides of our mouths. The 
fact is that we cannot continue to provide more and more 
exceptions. We have to look blending straight in the eye, in 
that is not a total success by any stretch of the imagination. 
That 30 percent figure should be--we should have a goal of over 
the next 10 years reducing that 30 percent to 25 or 20 percent. 
And we are not in the path that we pursue.
    Thank you, Mr. Chairman.
    Mr. Duncan. [Presiding] Well, thank you very much, Mr. 
Pascrell. Of course, that's one of the purposes of a hearing 
such as this, that we need to call more attention to these 
needs. That ultimately, hopefully, and usually does lead to 
some increased appropriations.
    I'm going to go to Dr. Ehlers first, but just let me ask 
one question. I've got information here that says EPA estimated 
that the cost of providing biological treatment to all combined 
sewer flows of between $88 billion and $130 billion. For 
separate sewer flows estimated cost would be between $79 
billion and $83 billion. Collectively, this means a total cost 
of roughly $80 billion to $200 billion. Most of these costs 
would be incurred by requiring cities to build sewage 
facilities to capture all wet weather flows.
    Do any of you or all of you agree that those EPA estimates 
on the costs, if we eliminated blending altogether, would it 
cost roughly in the $100 billion to $200 billion range, or do 
you dispute that, Ms. Stoner?
    Ms. Stoner. EPA is not able to answer a question about 
where blending currently occurs in the United States and where 
it doesn't. I've been trying to get that information from EPA 
for two years. I did a Freedom of Information Act request 
trying to get it. EPA doesn't know. EPA does not have an 
estimate of that. It doesn't have an estimate of the health 
risks, it doesn't have an estimate of a lot of the things that 
you would want to know and the American public want to know 
about its own proposed policies.
    Mr. Duncan. If EPA doesn't have an estimate, do you have an 
estimate?
    Ms. Stoner. No, sir, because I don't know which facilities 
in the United States do or don't blend. But I believe that it 
is appropriate to consider costs in terms of the feasibility 
analysis I just spoke of. Cost is an element of that. It's an 
element of it in the combined sewer overflow policy which 
recognizes that this practice is a bypass and should be 
disfavored and only allowed as an alternative.
    Mr. Duncan. Let me ask you this. If you don't know which 
facilities, would there not be a way that you could contact the 
major facilities around the country, assuming that you can 
contact them all, the small ones as well as the large ones, but 
couldn't you contact most of the major facilities and make a 
sort of an educated guess as to what the costs might be? I 
mean, it looks like to me like if we talk about eliminating, if 
somebody wants us to eliminate something, we need to talk about 
what the costs would be.
    Do any of you others have any cost estimates, or do you 
think that the EPA is correct here in this $200 billion range? 
What do you think about that, Mr. Graham?
    Mr. Graham. Well, Limnotech did the study for EPA. We were 
one of the utilities that was contacted by Limnotech. Based on 
talking with them, they tried as best they could to put 
together a realistic estimate on what the cost was.
    If anything, our experience has been, when you try and put 
an engineering cost to something, you're more likely to have 
cost overruns, in other words, cost more than the estimate, 
than to cost less.
    Mr. Duncan. So in other words, you think the estimates may 
indeed be low, is that what you're saying?
    Mr. Graham. I think they may even be low, yes, sir.
    Mr. Duncan. Mr. Vicory, you wanted to say something?
    Mr. Vicory. Well, as I mentioned in my testimony, the City 
of Cincinnati is on the hook in a Federal consent decree for a 
billion and a half dollars over the next 20 years. That cost, 
the basis of that cost cap is not relief from future additional 
costs to the city above that. It basically gives them relief in 
terms of the schedule they have to meet in order to put their, 
what they call the long-term control plan together for CSOs.
    And then at the end of the day, Cincinnati's end result is 
probably not going to be literally complete capture and full 
treatment of all the flows that they have. So I think if you 
take that figure alone and extrapolate it, we're talking 
obviously a huge amount of money. I know that Atlanta, I 
believe, and Toledo, New Orleans I believe all have consent 
decrees that are in these magnitudes of dollars. So I think 
when you kind of add up in a very rough sense the figures, 
we're talking about that magnitude. And I have no basis 
ultimately to refute.
    But I know there are some associations out there, such as 
the Association of Metropolitan Sewerage Agencies, AMSA, they 
themselves would be a source of information regarding your 
question, sir.
    Mr. Duncan. All right, thank you very much. Dr. Ehlers.
    Mr. Ehlers. Thank you, Mr. Chairman, and thank you 
especially for holding this hearing. It's an extremely 
important issue that our Nation has been struggling with for 
some time. It's certainly time for resolution.
    I happen to come from what I happen to think is a very 
wonderful community, Grand Rapids, Michigan. We faced, 
approximately 15 years ago, a mandate from the State to get rid 
of the combined sewage overflow. I remember being invited by 
the city commission to meet with them to explain how they could 
possibly handle this horribly expensive problem. And I 
explained the best way to do it is to separate the sewers, 
which is of course extremely expensive.
    I still recall one city commissioner jumping up and 
screaming at me that, this is something we can't afford, the 
people won't stand for it, they can't pay for it and so forth. 
And I countered by saying, yes, it is expensive, but yes, the 
people will pay for it. They do not like to see sewage flowing 
downriver. And they're willing to pay to not have that happen.
    The upshot is, the city has gone ahead, I'm very proud of 
my city. They have spent roughly a quarter of a billion 
dollars, and it's not a large city, 180,000 people. My sewage 
treatment bills have gone up I would say at least five-fold 
since then, and that sounds exorbitant. But today, we are 
fishing in that river. Some people actually swim in the river. 
And my bills have gone up five-fold, my sewage treatment bill 
is considerably less than my cable TV bill, even more so less 
than my telephone bill, less than my cell phone bill, less than 
my water bill. You go right down the line.
    They bonded for it, they got some money from the State 
revolving fund. The city has simply tackled the problem and I 
think done a first-rate job and deserves a commendation for 
that. At the same time, the city of Detroit received the same 
instructions at the same time, and they are still pouring 
millions of gallons of sewage into the river and into the Great 
Lakes system every year.
    My point is simply, there are solutions out there. They are 
not cheap, but the public, I believe, is willing to pay for 
them. I don't think we should expect the Federal Government to 
pay for it all. We can help with the revolving loan fund. But 
communities still have bonding authority and as I say, the 
public is willing to pay this what I think is still relatively 
a minimal charge. Typically a monthly charge is less than 
taking your family out for hamburgers. And I think providing 
proper treatment for what happens to the hamburgers after you 
eat them is a reasonable thing to do.
    Now, end of sermon. Dr. Rose, I'm sorry I missed your 
testimony. We have two committee markups going on 
simultaneously, and I had to be in those. But it's very 
discouraging reading your testimony, which I've done, all these 
little critters, viruses, other entities in the water. Let me 
ask, if you came to a body of water that did not have human 
habitation nearby, in other words, a lake without cottages on 
it, or a mountain stream, how many of these organisms would you 
find in that water, and how dangerous would it be for humans to 
drink that water?
    Ms. Rose. Well, we do know that all waters will have some 
level of fecal contamination from a variety of animals. But the 
more you have humans near that water, the more variety of 
pathogens you will have, and the greater the concentrations. 
For example, the viruses, there are over 100 different types of 
enteric viruses. They only come from human waste and human 
sewage. And in fact, although the cattle might have been blamed 
in Milwaukee when they did the genetic testing of the 
cryptosporidium they found that it actually was the type that 
came from human sewage.
    And so I think that when we look at wastewater in a 
community, we can find these different pathogens there, we find 
them in high concentrations. And they're fairly young. They've 
just been excreted, they've just come out of another infected 
person, and they're in the water. So as we get closer and 
closer to urban and high density populations, we find more of 
these types of microbial contaminants. So that means that the 
risk goes up if we are being exposed to those waters without 
adequate treatment.
    I certainly, Dr. Ehlers, support what you've said about the 
public and trying to make priorities when there is a very 
costly problem in front of them and trying to decide how they 
want to spend their dollar. I think knowledge and information 
is important to the decision that the community is going to 
make.
    So if these facilities are blending or undertaking these 
other options, perhaps more water quality data and more 
information could help communities decide how they want to 
spend their dollars. If the infrastructure is at a D, maybe we 
are going to have to invest in infrastructure anyway, and 
perhaps there are ways we can kill two birds with one stone if 
we look broadly at the problem.
    Mr. Ehlers. In your testimony, you talk about some of the 
organisms that are in there. it seems, looking at your 
testimony, that a surprising number survive the treatment 
process. If blending were used in a fashion that didn't change 
the number or by very much, would blending be acceptable?
    Ms. Rose. Well, it does change the number. But there is a 
wide variation. I think as was pointed out in the testimony by 
my colleagues up here, some wastewater plants don't even have 
primary. Some don't do a very good job at secondary. So when 
you're blending, you might get different numbers.
    But if you look generally, primary contains higher 
concentrations. So when you mix it with secondary, you're 
adding more organisms and you're adding also more solids that 
impacts the disinfection process. You're going to try to kill 
the organisms after blending.
    And you can easily kill the e-coli and fecal coloforms. But 
the studies have shown that it's the viruses and these 
parasites that are more difficult to kill and are affected by 
increased particles to the effluent. So the approach I took is 
just one approach. I think it could be used in a whole variety 
of different facilities that may have, at different times, 
different blending scenarios that they might want to use. I 
think it could inform management on how they might want to go 
about blending different streams under different flow 
conditions at different times in terms of the risk.
    Mr. Ehlers. You didn't discuss, at least I didn't see 
anything in here about tertiary treatment. What does that 
consist of? Does that really take care of the rest of the 
organisms?
    Ms. Rose. Well, in the reclaimed water arena, in Florida 
and in the West, where they take wastewater and they reclaim it 
and reuse it, tertiary treatment generally refers to a 
filtration after secondary. So what they do is they use a 
filter, like a sand filter, that's similarly used in drinking 
water. It therefore reduces the pathogens even more.
    I've seen some of the newer facilities produce effluent in 
which you cannot detect any of these pathogens in their final 
effluent. It also makes the disinfection process very 
effective. So it undergoes primary, secondary, then filtration, 
then disinfection. So it takes even more particles out.
    Some tertiary treatment refers to nutrient removal as well, 
so there are facilities that, after secondary, they take, the 
ammonia goes to nitrate, then they take the nitrate out of the 
water. Tampa Bay was able to get money because they discharge 
to the bay, and Hillsborough County and the city of Tampa, to 
take out the nitrogen before they discharge. That was also 
advanced, considered tertiary treatment. So there are different 
forms.
    Mr. Ehlers. One last question. You mentioned a moment ago 
that in some cases, there is only primary treatment, sometimes 
not even that. In other cases, partial secondary treatment. Are 
you referring to that occurring as a result of blending, or 
were you saying there are treatment plants in the U.S that are 
treating sewage and still only doing primary?
    Ms. Rose. Yes, what I mentioned was, there are facilities 
that skip primary, they go right to secondary, they don't even 
have primary treatment. But also there are facilities that have 
a waiver from the Clean Water Act and they discharge primary. 
Hawaii was one of those, and in fact, there was an issue with 
whether the outfall was impacting the beaches. They decided to 
go to what's called an enhanced primary. It's one technique in 
which you can get primary to better treat and remove organisms, 
and then you can better disinfect. So Honolulu and Mamala Bay 
is one example where they had a waiver.
    Mr. Ehlers. But this is without blending? This is actually 
wastewater treatment?
    Ms. Rose. This is actually a wastewater treatment plant 
that achieved primary treatment and then discharged through the 
ocean outfall and used a diffuser to dilute the wastewater in 
the oceans.
    Mr. Ehlers. I didn't realize we had any plants left like 
that in the United States.
    Ms. Rose. There are a few.
    Mr. Ehlers. We should not have any. Thank you. I yield 
back.
    Mr. Boustany. [Presiding] Thank you, Mr. Ehlers.
    The Chair now recognizes Mrs. Schwartz.
    Mrs. Schwartz. Thank you, Mr. Chairman.
    Thank you for all of your testimony. Just a couple 
questions, if I may. One thing that wasn't mentioned, as a 
point of information, I guess, I understand there are now 
waivers for extreme conditions. So we're not asking anyone to 
build or rebuild a water treatment or sewage treatment plant 
for any circumstance. We do understand there are hurricanes, 
I'm not sure what wet weather is, but I do understand there are 
extreme conditions, and it would be, from a cost-benefit 
analysis, not sensible to prepare for these rare occurrences.
    So I think what--you're all nodding, so this is one we all 
agree on. Good. So what we're really looking at is, it seems to 
me, what is really the goal here. Is the goal to say, look, 
we've made a great deal of progress, but it's expensive and we 
don't have the money so let's do the best we can? Or is the 
goal to really do much better and continue the progress that we 
have made in cleaning up the water?
    Certainly there are a couple of you who referred to the 
fact that you have some connection to Pennsylvania and that's 
interesting to me. Certainly our Department of Environmental 
Resources, through the Deputy Secretary for Water Management, 
has made it very clear that they're not pleased about this 
policy and the change in this policy from the EPA. So if any of 
you have any statement you want to provide to me separately 
that implies that that's not correct, I would be interested in 
hearing that.
    What I am hearing certainly from my constituents is that 
they believe that the goal has to be clean water. That's been 
the goal for 30 years. The issue is, how are we going to get 
there, how does that make sense. You know as well as I do the 
President's 2006 budget actually reduced the amount of money 
available to the State revolving fund that was just talked 
about by my colleague. So that's not helping States and 
municipalities move in the direction of improving the water and 
sewer treatment facilities and the infrastructure, which is 
aging and does need improvement.
    So that to me is not moving in the right direction, if our 
goal is to increase the clean water available to Americans and 
I believe it has to be.
    One of the things I was interested in is that, it seems 
that what we are talking about, the proposal is should we have 
more blending or not. That seems to me to leave off a whole 
other list of what we might be able to do. No one really has 
mentioned that. Some of my constituents say, why all of a 
sudden is this such a problem. I believe the problem is that, 
well, we have standards we want to meet, we have an aging 
infrastructure.
    But the other is, all the development, much of which we're 
very proud of, that in fact has increased water flow. Part of 
my district has seen flooding that never has before. They don't 
know why that creek is overflowing, forgetting that they just 
put in a new supermarket and a whole new pavement and a lot 
more of that community is paved over than it ever was before. 
So the water is not being absorbed. And I'm not the expert, 
you're the experts, the water is not being absorbed, it's 
running off and flooding, and in fact has resulted in some new 
problems that we have to fix.
    So one of my questions is, why not put on the table what 
else we could be doing in addition to helping our local 
municipalities be able to improve their infrastructure? But why 
not also put on the table, I understand there are some new 
technologies unrelated to the infrastructure of water and sewer 
treatment and unrelated to the regulations actually that would 
help, for example, create more porous paving for our parking 
lots. I mean, this is not new age stuff here, this is something 
that, in my district, I have a wonderful arboretum, their 
parking lot has porous paving. They don't have a runoff 
problem.
    Now, you're going to tell me that's expensive too . But 
somewhere along the line, we have to figure out where we're 
going to start to encourage some of the other kinds of 
infrastructure that is being developed and being built, being 
done in a way that doesn't then cause us to have to make up for 
the problems that are caused by that.
    So I know there are stormwater gardens, and again, I know 
this sort of sounds like green stuff, but in fact, this is new 
technology that we know can make a difference that could in 
fact potentially save taxpayers billions of dollars over the 
next few years. So again, I understand the cost benefit 
analysis, we're talking about $200 billion being awfully 
expensive over the next 10 or 20 or 30 years for 
infrastructure, when in fact we talk about spending $200 
billion in other ways, it seems like, oh, that's not a big 
deal.
    I think this is all very much a question of what are our 
priorities. But my question here is, what else could we be 
doing that none of you have mentioned that in fact could both 
save municipalities and States money, one, and two, are there 
other ways we should be helping our municipalities be able to 
pay for some of that infrastructure, that we're moving in the 
wrong direction? And three, isn't our goal cleaner water? It 
seems to me the EPA's regulations are saying, you know, we're 
throwing up our hands, we can't do it fast enough so we're just 
going to make it less of a priority.
    Those are big questions, but maybe I would start with you, 
Ms. Stoner, you're nodding. If you would talk about what else 
we could be doing that no one else has actually mentioned.
    Ms. Stoner. Yes, I am nodding, because you are all over it. 
That's exactly what we need to do. We need to look system-wide 
at the collection system, where is the water coming from into 
the system. Of course, Pennsylvania has a lot of combined 
systems. One of the ways to address the problem of having too 
much water in the system is to offload it to allow it to seep 
into the ground. So soil and vegetation can treat it as Mother 
Nature has done, we're now trying to mimic that through the use 
of rain gardens, through the use of green roofs, just simple 
things like disconnecting the downspouts from our houses so 
that they run out into the yard where the water can then sink 
into the soil, replenish the groundwater supplies and stay out 
of the sewer system.
    That's part of the solution, is to look broadly. Part of 
the problem that I see with this blending or bypass approach is 
that it isn't looking broadly, it's looking at the treatment 
plant. Dilute water is coming into the treatment plant, what do 
we do now. And it offers a solution that is not as good as 
actually treating it.
    There are other ways to look more broadly at how we can 
meet multiple goals, having cleaner water, having replenished 
groundwater supplies, even having a more beautiful environment. 
Rain gardens are beautiful, as are green roofs. Helping with 
the heat island effect, reducing air pollution, it's all of the 
piece. If we look broadly and spend our dollars wisely on those 
kinds of approaches, which are often called green 
infrastructure approaches, we can accomplish more for our 
communities and for our environment.
    Mrs. Schwartz. Thank you.
    The only other question I would ask is, again, something I 
mentioned in my opening remarks, but a concern I have is that 
for some of our States and municipalities in particular that 
have actually been spending money over the last two decades for 
sure on infrastructure, and I know that the Philadelphia water 
department in the last 20 or 30 years actually spent almost $1 
billion to improve the water treatment, and is operating now 
three award-winning pollution control plants. Secondary 
treatment systems are in place in all three of our water 
pollution control plants. And again, we've spent about a 
billion dollars.
    If we move in this direction that has been suggested by the 
regulations from the EPA, is this actually going to reward 
municipalities that have sat on their hands or discourage the 
kinds of investments that my colleague on the other side of the 
aisle was sort of saying his community is wiling to make? And 
in fact saying to our local communities, don't spend money on 
improving the infrastructure because in fact, we are not going 
to really require you to do it and we're going to acknowledge 
that it's too hard.
    So we're actually again creating rewards and incentives to 
do less rather than rewards and incentives for the communities 
that have actually taken some real responsibility to think 
about the future and to start to plan ahead and to start to 
create what really are more innovative, potentially more cost-
effective in the future, kinds of water treatment and sewer 
plants, recognizing that so many of our communities have to do 
this. Some have stepped up to the plate to do it.
    So how do we switch gears here and actually encourage the 
communities to do that? Are there financial incentives to do 
that? There are obviously grant programs. But one of my big 
concerns is that these changes will actually encourage allowing 
or blending, but discourage the kind of investment that's not 
going to go away. These are still aging systems that need to be 
upgraded, and as I say, many municipalities that are struggling 
are in fact still making this kind of investment.
    So maybe this is a question for Mr. Graham, Mr. Vicory, you 
might want to say, why not encourage this kind of investment 
that you have to make in your municipality? Why discourage it?
    Mr. Graham. I don't think we are discouraging it. The city 
of Maryville, which I work for, has very actively supported us 
in the water and the wastewater treatment to spend the monies 
that we have been spending to decrease our I&I, significantly 
decrease it over the course of the last 15 years.
    Where our problem has come is with Region IV saying, no 
blending, any time, anywhere, it's illegal. We took plant down 
and that region said, you can't do it, period.
    Mrs. Schwartz. Even in extreme situations?
    Mr. Graham. Even in extreme situations.
    Mrs. Schwartz. So is that what's driving this, is that the 
EPA or the region--you didn't actually say, maybe that's a 
problem with their interpretation of the current regulations 
rather than a call for significant changes in those 
regulations? It's a rather big answer to what might be a 
regional administrator, I don't know.
    Mr. Graham. What we're asking for is a clarification of 
those rules so that we know what we can and cannot do on the 
other side.
    Mrs. Schwartz. I think that's a very different problem than 
actually rewriting the regulations.
    Mr. Graham. I don't think we're rewriting the regulations, 
Mrs. Schwartz. I think what we're asking for in our opinion, 
and what EPA has said in their Freedom of Information, is that 
blending has been in the tools and that the secondary, the 
Clean Water Act doesn't prohibit blending. To address whether 
blending is the primary one, no. Blending in our plant is what 
we do when the water goes above a certain level. Every time, 
all of us have at some point in time had a sink overflow, or a 
tub overflow, the water's been too much going into the system 
to be handled under the conditions that it was originally 
designed for.
    Where we look at blending is to try and handle those peak, 
infrequent flows when the biological side, and biology rules in 
a biological treatment plant, it can only take so much of a 
surge or so much starvation between the dosages of sewage 
that's going on. Whether it's blending or storage, that is the 
approach that helps you equalize and get the maximum treatment 
while still meeting those discharge limits that the State and 
the EPA have set as being protective of the water body that 
we're discharging to.
    Mrs. Schwartz. So then I'll just close with this, it sounds 
like what you're saying then is that you are supportive of 
continuing to upgrade the infrastructure and make those kinds 
of investments and hopefully not calling for blending too 
often. The question is getting that right, of course.
    But maybe that speaks to what the Ranking Member talked 
about earlier, which is, that's getting the right people in the 
room to make sure the interpretation is addressing some of your 
concerns, rather than making changes that could have dramatic 
effects on other areas or not experiencing the same kind of 
response from the region. Maybe that's something to look at 
more locally and see if we can't get kind of, some kind of 
response from your own delegation. Obviously you have some 
folks here from Tennessee who might be able to bring the EPA in 
and see if you can't have some other discussion about that.
    But anyway, Mr. Chairman, thank you.
    Mr. Boustany. Thank you, Mrs. Schwartz.
    I have one question while I have the Chair that I'd like to 
ask. Mr. Graham, you mentioned in your testimony concerns about 
misinformation. I'm someone who has a health care background 
and understands the importance of Koch's postulates when 
dealing with microorganisms and so forth.
    It's my understanding that in some communities that have 
practiced blending, there have been communities that have 
practiced blending over the past 30 years, in this time frame, 
have there been any reports of outbreaks of pathogens, and a 
real good study done to show that it was related to the 
facility that was in question? Ms. Rose, would you like to 
handle that? Dr. Rose, I'm sorry.
    Ms. Rose. Specifically looking at blending and tying it 
back, that is one of the problems. I think more studies do need 
to investigate this, and investigate both water quality and 
public health impacts. That is perhaps through better 
epidemiological and health surveillance. So I definitely 
support that there's not enough information to actually test 
Koch's postulates right now.
    What we do know is that in 50 years of waterborne disease 
outbreaks in the United States, they are statistically related 
to events with high precipitation. And so in high flow, we're 
getting more outbreaks, waterborne outbreaks, from these types 
of pathogens, including viruses, giardia and cryptosporidium. 
So the question becomes, then, during these events, if our 50 
years of data, and that's from epidemiological surveillance, 
shows this relationship, how do we go to the community level 
and start investigating and investing to make the association.
    I do think investment in science and research, I think the 
work that the Water Environment Research Foundation is 
embarking on is extremely important. I think we have not 
invested enough research and science into the wastewater side 
of the water industry.
    Mr. Boustany. Thank you.
    Mr. Vicory, same question. What are your thoughts?
    Mr. Vicory. Well, there's no information that's come across 
my desk that indicates there has been what might be termed a 
defined outbreak as a result of a discharge from a blended 
facility.
    But I have to put that in context, I think it's important 
to do that. When you look at the Ohio River, which is kind of 
my hometown, Cincinnati, the number of people that literally 
use that river for swimming purposes and get the kind of direct 
exposure, you know, it's really, I think, practically speaking, 
on an nice day, probably a handful of people. A lot of people 
use the Ohio River for recreation. Many of them are in boats. 
But the number of people that literally have the jet-skis or 
are on the water skis are really not that many.
    And even if there was somebody who got sick, or two or 
three people, they could live in totally opposite parts of 
town, they could live in a different State. So trying to tie 
visits to a hospital or visits to a doctor to the anecdotal use 
of the Ohio River, you can hopefully understand how difficult 
that really is.
    But having said that, that when you look at a wet weather 
situation in the Ohio River and Cincinnati, and the bacterial 
loading that occurs from the Cincinnati side or the northern 
Kentucky side, Cincinnati has roughly 250 sewage overflow 
structures, the northern Kentucky side probably has 70 to 100. 
When you look at the loading of bacteria in a wet weather 
event, the amount of bacteria that ends up going into the river 
from a blended sewage treatment plant effluent that gets 
disinfection, versus the bacteria in the combination of sewer 
overflows, there could be 10, 15 sewer overflows, could be 300 
overflows, the ratio of bacterial input is, I think, 
practically speaking, very small if not relatively minuscule, 
of a blended effluent versus the raw sewage that's being 
discharged in these overflow points.
    So even if you had some information that people were 
getting sick in the Ohio River and literally tying it to the 
blended effluent versus the other inputs, I think, would be 
probably almost impossible to do. But that issue that I speak 
of, about relative loadings, really gets back, I think, at the 
heart of the issue that's important for a community when they 
talk about bacteria in the river. That's ultimately what we're 
trying to do here, is to achieve water quality, that a 
community needs to spend its money it's struggling to acquire 
in a fashion that, as was mentioned earlier, that gets at where 
can we reduce the risks the most for the money that we spend, 
how do we do that.
    Mr. Boustany. Thank you. I think as we move forward, having 
some of that scientific data and relating it to outbreaks is 
going to be very useful. Because the big challenge is going to 
be looking at cost benefit analysis, because we've got aging 
infrastructure and major concerns. So I think the lesson here 
would be to try to come up with some studies.
    I guess one other question, quickly, and that is, are there 
standard methodologies of looking at the effluent right now in 
blended water? I mean, is there a standard being used to 
quantify organisms across the board or facilities are using 
different methodologies? Anybody who might have an answer to 
that question, I would appreciate it.
    Mr. Graham. Each State puts requirements on the discharging 
facility. It's called the NPDES permit. In our case, we are 
required to monitor the discharge for the pollutants that have 
been identified. The Little River, there, for example, is a 
TMDL on coliform. We monitor for coliform, we monitor for total 
suspended solids and we monitor for BOD.
    If the State has additional rules that says, we need to 
monitor for additional items, then we would monitor for that. 
That is part of that NPDES permit, and I think that would be a 
basis to start from as to what needs to be monitored for, and 
getting that information in from the utilities can provide a 
lot of that.
    Mr. Boustany. Thank you.
    Now the Chair would like to recognize the Chairman of this 
Subcommittee.
    Mr. Duncan. Well, thank you, Dr. Boustany. And of course, 
you're the Vice Chair of this Subcommittee and I do appreciate 
your participation and taking over for me. I've had two 
different markups going in two different committees, in 
addition to this Subcommittee this morning. I usually try to 
stay for just about every bit of a hearing. I apologize to the 
witnesses, because I do think this is a very important subject. 
I'm not going to ask any questions, because I'm supposed to 
speak at a meeting at noon, and another meeting at 1:00 and 
another group at 2:00. I don't know how I'm going to do it all.
    But I do want to thank you once again for coming. I say 
this, for whatever reason, the Congress doesn't have very many 
scientific or technical people in the Congress, very few. Dr. 
Ehlers is one of the very rare exceptions. So we need, I think, 
a closer working relationship with those who do have scientific 
and technical knowledge in many of these fields. You are going 
to have to explain things to us in a simple way that 98 percent 
of us can understand these things.
    But I think that we've got to rely most heavily on the 
people who are on the firing line. I have talked to many people 
over the years such as Mr. Vicory and Mr. Graham, who have 
worked or are working in our water treatment facilities. And 
I've never seen a one yet that wants to put out a dirty product 
or discharge sewage. Some people act like there are people in 
those facilities who want to harm people, and I just have never 
found anybody in that situation.
    I do think it's unfortunate, we are probably spending more 
per capita on the water system in Iraq, at least at the Federal 
level, than we are on the water system here in this country. 
Thank goodness, the States and the local governments and the 
ratepayers are doing as much as they are doing.
    Now, I told Dr. Ehlers, I agreed with him on the cable TV 
and cell phone bills. In fact, I wrote the FCC several weeks 
ago or two or three months ago opposing use of the cell phones 
on the airplanes. But I put in my last newsletter something 
about that, then I said, if young people would conservatively 
invest what they are paying in their cable TV and cell phone 
bills each month, they probably could retire early with 
substantial fortunes.
    But having said that, and I do agree with what he said, 
that people probably should and probably are willing to pay a 
little bit more on their water bills, because they are getting 
a real bargain. But having said that, and I don't represent, 
some people up here think because I'm from east Tennessee, I 
represent this Appalachian poverty district where we still have 
outhouses and all that. And that is so totally false. Our 
economy in east Tennessee is better than probably 90 percent of 
the places in this country. It's become one of the most popular 
places to move to.
    On the other hand, even where the economy is good, most of 
the people that all of us represent don't have a lot of excess 
funds. Your average, typical families out here are having 
difficulties paying all their bills and so forth. So I don't 
know that we want to advocate five or ten-fold increases in our 
water bills, at least doing it very quickly. So we've got to 
use a little common sense in these situations, we've got to use 
a little balance and realize that people have so many other 
things that they have to pay for in addition to all this.
    So we need to work together, and I know Dr. Rose has looked 
into the emerging technologies that are coming about. I don't 
understand the technology but I have read and been told that 
it's far improved over what it was 25 or 30 years ago. It seems 
that it's moving even faster now.
    So hopefully a combination of doing a little more at the 
Federal level, using a little common sense and going to some of 
the emerging new technology, and just a whole combination of 
things, we can keep improving this product that we're putting 
out for the American people. And I look forward to hearing from 
each of you in the future, and working more closely with you to 
try to solve what I think is very, very important.
    With that, I'll yield back to Dr. Boustany for any closing 
comments or questions that he has, and I'll run off to my 
meeting. Thank you very much.
    Mr. Boustany. Thank you, Mr. Chairman.
    I would just like to close by saying thank you all for 
coming to testify. We appreciate your patience in answering our 
questions and we certainly look forward to working with all of 
you.
    With that, we will adjourn the Subcommittee hearing. Thank 
you.
    [Whereupon, at 12:07 p.m., the subcommittee was adjourned.]

    [GRAPHIC] [TIFF OMITTED] T1631.001
    
    [GRAPHIC] [TIFF OMITTED] T1631.002
    
    [GRAPHIC] [TIFF OMITTED] T1631.003
    
    [GRAPHIC] [TIFF OMITTED] T1631.004
    
    [GRAPHIC] [TIFF OMITTED] T1631.005
    
    [GRAPHIC] [TIFF OMITTED] T1631.006
    
    [GRAPHIC] [TIFF OMITTED] T1631.007
    
    [GRAPHIC] [TIFF OMITTED] T1631.008
    
    [GRAPHIC] [TIFF OMITTED] T1631.009
    
    [GRAPHIC] [TIFF OMITTED] T1631.010
    
    [GRAPHIC] [TIFF OMITTED] T1631.011
    
    [GRAPHIC] [TIFF OMITTED] T1631.012
    
    [GRAPHIC] [TIFF OMITTED] T1631.013
    
    [GRAPHIC] [TIFF OMITTED] T1631.014
    
    [GRAPHIC] [TIFF OMITTED] T1631.015
    
    [GRAPHIC] [TIFF OMITTED] T1631.016
    
    [GRAPHIC] [TIFF OMITTED] T1631.017
    
    [GRAPHIC] [TIFF OMITTED] T1631.018
    
    [GRAPHIC] [TIFF OMITTED] T1631.019
    
    [GRAPHIC] [TIFF OMITTED] T1631.020
    
    [GRAPHIC] [TIFF OMITTED] T1631.021
    
    [GRAPHIC] [TIFF OMITTED] T1631.022
    
    [GRAPHIC] [TIFF OMITTED] T1631.023
    
    [GRAPHIC] [TIFF OMITTED] T1631.024
    
    [GRAPHIC] [TIFF OMITTED] T1631.025
    
    [GRAPHIC] [TIFF OMITTED] T1631.026
    
    [GRAPHIC] [TIFF OMITTED] T1631.027
    
    [GRAPHIC] [TIFF OMITTED] T1631.028
    
    [GRAPHIC] [TIFF OMITTED] T1631.029
    
    [GRAPHIC] [TIFF OMITTED] T1631.030
    
    [GRAPHIC] [TIFF OMITTED] T1631.031
    
    [GRAPHIC] [TIFF OMITTED] T1631.032
    
    [GRAPHIC] [TIFF OMITTED] T1631.033
    
    [GRAPHIC] [TIFF OMITTED] T1631.034
    
    [GRAPHIC] [TIFF OMITTED] T1631.035
    
    [GRAPHIC] [TIFF OMITTED] T1631.036
    
    [GRAPHIC] [TIFF OMITTED] T1631.037
    
    [GRAPHIC] [TIFF OMITTED] T1631.038
    
    [GRAPHIC] [TIFF OMITTED] T1631.039
    
    [GRAPHIC] [TIFF OMITTED] T1631.040
    
    [GRAPHIC] [TIFF OMITTED] T1631.041
    
    [GRAPHIC] [TIFF OMITTED] T1631.042
    
    [GRAPHIC] [TIFF OMITTED] T1631.043
    
    [GRAPHIC] [TIFF OMITTED] T1631.044
    
    [GRAPHIC] [TIFF OMITTED] T1631.045
    
    [GRAPHIC] [TIFF OMITTED] T1631.046
    
    [GRAPHIC] [TIFF OMITTED] T1631.047
    
    [GRAPHIC] [TIFF OMITTED] T1631.048
    
    [GRAPHIC] [TIFF OMITTED] T1631.049
    
    [GRAPHIC] [TIFF OMITTED] T1631.050
    
    [GRAPHIC] [TIFF OMITTED] T1631.051
    
    [GRAPHIC] [TIFF OMITTED] T1631.052
    
    [GRAPHIC] [TIFF OMITTED] T1631.053
    
    [GRAPHIC] [TIFF OMITTED] T1631.054
    
    [GRAPHIC] [TIFF OMITTED] T1631.055
    
    [GRAPHIC] [TIFF OMITTED] T1631.056
    
    [GRAPHIC] [TIFF OMITTED] T1631.057
    
    [GRAPHIC] [TIFF OMITTED] T1631.058
    
    [GRAPHIC] [TIFF OMITTED] T1631.059
    
    [GRAPHIC] [TIFF OMITTED] T1631.060
    
    [GRAPHIC] [TIFF OMITTED] T1631.061
    
    [GRAPHIC] [TIFF OMITTED] T1631.062
    
    [GRAPHIC] [TIFF OMITTED] T1631.063
    
    [GRAPHIC] [TIFF OMITTED] T1631.064
    
    [GRAPHIC] [TIFF OMITTED] T1631.065
    
    [GRAPHIC] [TIFF OMITTED] T1631.066
    
    [GRAPHIC] [TIFF OMITTED] T1631.067
    
    [GRAPHIC] [TIFF OMITTED] T1631.068
    
    [GRAPHIC] [TIFF OMITTED] T1631.069
    
    [GRAPHIC] [TIFF OMITTED] T1631.070
    
    [GRAPHIC] [TIFF OMITTED] T1631.071
    
    [GRAPHIC] [TIFF OMITTED] T1631.072
    
    [GRAPHIC] [TIFF OMITTED] T1631.073
    
    [GRAPHIC] [TIFF OMITTED] T1631.074
    
    [GRAPHIC] [TIFF OMITTED] T1631.075
    
    [GRAPHIC] [TIFF OMITTED] T1631.076
    
    [GRAPHIC] [TIFF OMITTED] T1631.077
    
    [GRAPHIC] [TIFF OMITTED] T1631.078
    
    [GRAPHIC] [TIFF OMITTED] T1631.079
    
    [GRAPHIC] [TIFF OMITTED] T1631.080
    
    [GRAPHIC] [TIFF OMITTED] T1631.081
    
    [GRAPHIC] [TIFF OMITTED] T1631.082
    
    [GRAPHIC] [TIFF OMITTED] T1631.083
    
    [GRAPHIC] [TIFF OMITTED] T1631.084
    
    [GRAPHIC] [TIFF OMITTED] T1631.085
    
    [GRAPHIC] [TIFF OMITTED] T1631.086
    
    [GRAPHIC] [TIFF OMITTED] T1631.087
    
    [GRAPHIC] [TIFF OMITTED] T1631.088
    
    [GRAPHIC] [TIFF OMITTED] T1631.089
    
    [GRAPHIC] [TIFF OMITTED] T1631.090
    
    [GRAPHIC] [TIFF OMITTED] T1631.091
    
    [GRAPHIC] [TIFF OMITTED] T1631.092
    
    [GRAPHIC] [TIFF OMITTED] T1631.093
    
    [GRAPHIC] [TIFF OMITTED] T1631.094
    
    [GRAPHIC] [TIFF OMITTED] T1631.095
    
    [GRAPHIC] [TIFF OMITTED] T1631.096
    
    [GRAPHIC] [TIFF OMITTED] T1631.097
    
    [GRAPHIC] [TIFF OMITTED] T1631.098
    
    [GRAPHIC] [TIFF OMITTED] T1631.099
    
    [GRAPHIC] [TIFF OMITTED] T1631.100
    
    [GRAPHIC] [TIFF OMITTED] T1631.101
    
    [GRAPHIC] [TIFF OMITTED] T1631.102
    
    [GRAPHIC] [TIFF OMITTED] T1631.103
    
    [GRAPHIC] [TIFF OMITTED] T1631.104
    
    [GRAPHIC] [TIFF OMITTED] T1631.105
    
    [GRAPHIC] [TIFF OMITTED] T1631.106
    
    [GRAPHIC] [TIFF OMITTED] T1631.107
    
    [GRAPHIC] [TIFF OMITTED] T1631.108
    
    [GRAPHIC] [TIFF OMITTED] T1631.109
    
    [GRAPHIC] [TIFF OMITTED] T1631.110
    
    [GRAPHIC] [TIFF OMITTED] T1631.111
    
    [GRAPHIC] [TIFF OMITTED] T1631.112
    
    [GRAPHIC] [TIFF OMITTED] T1631.113
    
    [GRAPHIC] [TIFF OMITTED] T1631.114
    
    [GRAPHIC] [TIFF OMITTED] T1631.115
    
    [GRAPHIC] [TIFF OMITTED] T1631.116
    
    [GRAPHIC] [TIFF OMITTED] T1631.117
    
    [GRAPHIC] [TIFF OMITTED] T1631.118
    
    [GRAPHIC] [TIFF OMITTED] T1631.119
    
    [GRAPHIC] [TIFF OMITTED] T1631.120
    
    [GRAPHIC] [TIFF OMITTED] T1631.121
    
    [GRAPHIC] [TIFF OMITTED] T1631.122
    
    [GRAPHIC] [TIFF OMITTED] T1631.123
    
    [GRAPHIC] [TIFF OMITTED] T1631.124
    
    [GRAPHIC] [TIFF OMITTED] T1631.125
    
    [GRAPHIC] [TIFF OMITTED] T1631.126
    
    [GRAPHIC] [TIFF OMITTED] T1631.127
    
    [GRAPHIC] [TIFF OMITTED] T1631.128
    
    [GRAPHIC] [TIFF OMITTED] T1631.129
    
    [GRAPHIC] [TIFF OMITTED] T1631.130
    
    [GRAPHIC] [TIFF OMITTED] T1631.131
    
    [GRAPHIC] [TIFF OMITTED] T1631.132
    
    [GRAPHIC] [TIFF OMITTED] T1631.133
    
    [GRAPHIC] [TIFF OMITTED] T1631.134
    
    [GRAPHIC] [TIFF OMITTED] T1631.135
    
    [GRAPHIC] [TIFF OMITTED] T1631.136
    
    [GRAPHIC] [TIFF OMITTED] T1631.137
    
    [GRAPHIC] [TIFF OMITTED] T1631.138
    
    [GRAPHIC] [TIFF OMITTED] T1631.139
    
    [GRAPHIC] [TIFF OMITTED] T1631.140
    
    [GRAPHIC] [TIFF OMITTED] T1631.141
    
    [GRAPHIC] [TIFF OMITTED] T1631.142
    
    [GRAPHIC] [TIFF OMITTED] T1631.143
    
    [GRAPHIC] [TIFF OMITTED] T1631.144
    
    [GRAPHIC] [TIFF OMITTED] T1631.145
    
    [GRAPHIC] [TIFF OMITTED] T1631.146
    
    [GRAPHIC] [TIFF OMITTED] T1631.147
    
    [GRAPHIC] [TIFF OMITTED] T1631.148
    
    [GRAPHIC] [TIFF OMITTED] T1631.149
    
    [GRAPHIC] [TIFF OMITTED] T1631.150
    
    [GRAPHIC] [TIFF OMITTED] T1631.151
    
    [GRAPHIC] [TIFF OMITTED] T1631.152
    
    [GRAPHIC] [TIFF OMITTED] T1631.153
    
    [GRAPHIC] [TIFF OMITTED] T1631.154
    
    [GRAPHIC] [TIFF OMITTED] T1631.155
    
    [GRAPHIC] [TIFF OMITTED] T1631.156
    
    [GRAPHIC] [TIFF OMITTED] T1631.157
    
    [GRAPHIC] [TIFF OMITTED] T1631.158
    
    [GRAPHIC] [TIFF OMITTED] T1631.159
    
    [GRAPHIC] [TIFF OMITTED] T1631.160
    
    [GRAPHIC] [TIFF OMITTED] T1631.161
    
    [GRAPHIC] [TIFF OMITTED] T1631.162
    
    [GRAPHIC] [TIFF OMITTED] T1631.163
    
    [GRAPHIC] [TIFF OMITTED] T1631.164
    
    [GRAPHIC] [TIFF OMITTED] T1631.165
    
    [GRAPHIC] [TIFF OMITTED] T1631.166
    
    [GRAPHIC] [TIFF OMITTED] T1631.167
    
    [GRAPHIC] [TIFF OMITTED] T1631.168
    
    [GRAPHIC] [TIFF OMITTED] T1631.169
    
    [GRAPHIC] [TIFF OMITTED] T1631.170
    
    [GRAPHIC] [TIFF OMITTED] T1631.171
    
    [GRAPHIC] [TIFF OMITTED] T1631.172
    
    [GRAPHIC] [TIFF OMITTED] T1631.173
    
    [GRAPHIC] [TIFF OMITTED] T1631.174
    
    [GRAPHIC] [TIFF OMITTED] T1631.175
    
    [GRAPHIC] [TIFF OMITTED] T1631.176
    
    [GRAPHIC] [TIFF OMITTED] T1631.177
    
    [GRAPHIC] [TIFF OMITTED] T1631.178
    
    [GRAPHIC] [TIFF OMITTED] T1631.179
    
    [GRAPHIC] [TIFF OMITTED] T1631.180
    
    [GRAPHIC] [TIFF OMITTED] T1631.181
    
    [GRAPHIC] [TIFF OMITTED] T1631.182
    
    [GRAPHIC] [TIFF OMITTED] T1631.183
    
    [GRAPHIC] [TIFF OMITTED] T1631.184
    
    [GRAPHIC] [TIFF OMITTED] T1631.185
    
    [GRAPHIC] [TIFF OMITTED] T1631.186
    
    [GRAPHIC] [TIFF OMITTED] T1631.187
    
    [GRAPHIC] [TIFF OMITTED] T1631.188
    
    [GRAPHIC] [TIFF OMITTED] T1631.189
    
    [GRAPHIC] [TIFF OMITTED] T1631.190
    
    [GRAPHIC] [TIFF OMITTED] T1631.191
    
    [GRAPHIC] [TIFF OMITTED] T1631.192
    
    [GRAPHIC] [TIFF OMITTED] T1631.193
    
    [GRAPHIC] [TIFF OMITTED] T1631.194
    
    [GRAPHIC] [TIFF OMITTED] T1631.195
    
    [GRAPHIC] [TIFF OMITTED] T1631.196
    
    [GRAPHIC] [TIFF OMITTED] T1631.197
    
    [GRAPHIC] [TIFF OMITTED] T1631.198
    
    [GRAPHIC] [TIFF OMITTED] T1631.199
    
    [GRAPHIC] [TIFF OMITTED] T1631.200
    
    [GRAPHIC] [TIFF OMITTED] T1631.201
    
    [GRAPHIC] [TIFF OMITTED] T1631.202
    
    [GRAPHIC] [TIFF OMITTED] T1631.203
    
    [GRAPHIC] [TIFF OMITTED] T1631.204
    
    [GRAPHIC] [TIFF OMITTED] T1631.205
    
    [GRAPHIC] [TIFF OMITTED] T1631.206
    
    [GRAPHIC] [TIFF OMITTED] T1631.207
    
    [GRAPHIC] [TIFF OMITTED] T1631.208
    
    [GRAPHIC] [TIFF OMITTED] T1631.209
    
    [GRAPHIC] [TIFF OMITTED] T1631.210
    
    [GRAPHIC] [TIFF OMITTED] T1631.211
    
    [GRAPHIC] [TIFF OMITTED] T1631.212
    
    [GRAPHIC] [TIFF OMITTED] T1631.213
    
    [GRAPHIC] [TIFF OMITTED] T1631.214
    
    [GRAPHIC] [TIFF OMITTED] T1631.215
    
                                    

</pre></body></html>
